Department of Homeland Security
   Ofﬁce of Inspector General

 FEMA Response to Formaldehyde in Trailers 


                                           (Redacted)





 Notice: The Department of Homeland Security, Office of the Inspector General, has redacted this report for
 public release.




OIG-09-83                                                                                          June 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 25028




                                      June 26, 2009


                                         Preface

The Department of Homeland Security Office of Inspector General was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports
prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency’s decision making, policy, and procedures related to the issue of
formaldehyde in trailers purchased by the agency to house victims of the 2005 Gulf Coast
hurricanes. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust that this report will result in more effective, efficient, and economical operations.
We express our appreciation to all of those who contributed to the preparation of this
report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 


EXECUTIVE SUMMARY ................................................................................... 1

INTRODUCTION AND BACKGROUND ............................................................... 4

  FEMA Trailers ................................................................................................................ 5 

  Formaldehyde ................................................................................................................. 7 

  Effects of Formaldehyde................................................................................................. 9 

  Formaldehyde Standards...............................................................................................
10
CAUSES OF FORMALDEHYDE PROBLEMS IN FEMA TRAILERS .................. 12

  Conclusions................................................................................................................... 14

  Recommendations......................................................................................................... 14 

FEMA RESPONSES TO THE DEVELOPING FORMALDEHYDE PROBLEM ..... 15

  Early Indications of Formaldehyde Problems............................................................... 15 

  FEMA Officials’ Reactions to the Formaldehyde Issue ............................................... 16 

  FEMA Policies on Addressing Formaldehyde Problem Cases.....................................
20
  FEMA Efforts to Assist Trailer Residents With Formaldehyde Complaints ............... 23 

  Effects of FEMA’s Initial Responses to Formaldehyde ............................................... 25 

  Conclusions................................................................................................................... 26

  Recommendations......................................................................................................... 26 

FORMALDEHYDE TESTING EFFORT FOR UNOCCUPIED TRAILERS ............. 27

  Initiation of a FEMA Formaldehyde Testing Program................................................. 27 

  Conduct of Testing of Unoccupied Units ..................................................................... 29 

  Analysis of Formaldehyde Tests of Unoccupied Units ................................................
30
  Problems With the Initial Analysis Report ................................................................... 31 

  Role of the FEMA Attorney in the Formaldehyde Testing Program............................ 33 

  Effects of the FEMA Attorney’s Role in the Program ................................................. 35 

  Effects of Testing Unoccupied Units Rather Than Occupied Units ............................. 36 

  Causes of the Manner in Which the Testing Program Was Managed .......................... 36 

  Conclusions................................................................................................................... 39

  Recommendation ..........................................................................................................
40
FORMALDEHYDE TESTING EFFORT FOR OCCUPIED TRAILERS .................. 41

  Initiation of the Testing Program for Occupied Trailers .............................................. 41 

  FEMA Delays in Obtaining Testing Assistance From CDC ........................................ 44 

  Testing Program for Occupied Trailers Commences.................................................... 46 

  FEMA Officials Stop the Testing Program for Occupied Trailers ............................... 46 

  Testing Effort for Occupied Trailers Gets Completed..................................................
50
  Causes of Delay in the Testing Effort for Occupied Units ........................................... 54 

  Conclusions................................................................................................................... 57

  Recommendations......................................................................................................... 58 

Table of Contents/Abbreviations 


EPILOGUE – ACTIONS AND EFFORTS RELATED TO FORMALDEHYDE IN
TRAILERS AFTER THE FEBRUARY 14, 2008, NEWS CONFERENCE.............. 59
  Conclusions................................................................................................................... 62

MANAGEMENT COMMENTS AND OIG ANALYSIS ........................................ 63


APPENDIX A:            PURPOSE, SCOPE, AND METHODOLOGY…………………….64
APPENDIX B:            TIMELINE OF KEY EVENTS……………………………………..66
APPENDIX C:            CONSOLIDATED LIST OF RECOMMENDATIONS …………..71
APPENDIX D:            MANAGEMENT COMMENTS TO THE DRAFT REPORT……73
APPENDIX E:            REPORT DISTRIBUTION……………………………………….....78
APPENDIX F:            OIG CONTRIBUTORS…………………………………………..….79


Abbreviations
         ASHRAE                American Society of Heating, Refrigerating and Air-Conditioning
                               Engineers
         ATSDR                 Agency for Toxic Substances and Disease Registry
         CDC                   Centers for Disease Control and Prevention
         CFO                   Chief Financial Officer
         CMO                   Chief Medical Officer
         COTR                  Contracting Officer’s Technical Representative
         DHS                   Department of Homeland Security
         DOJ                   Department of Justice
         EA                    External Affairs
         EPA                   Environmental Protection Agency
         FCO                   Federal Coordinating Officer
         FEMA                  Federal Emergency Management Agency
         FOIA                  Freedom of Information Act
         HHS                   Department of Health and Human Services
         HUD                   Department of Housing and Urban Development
         IAA                   interagency agreement
         IARC                  International Agency for Research on Cancer
         JFO                   Joint Field Office
         KO                    Contracting Officer (more commonly abbreviated as CO)
         MH                    mobile home (or manufactured housing)
         MHOPS                 Mobile Homes Operations
         NASA                  National Aeronautics and Space Administration
         NIOSH                 National Institute for Occupational Safety and Health
         OCC                   Office of Chief Counsel (FEMA)
         OGCR                  Office of Gulf Coast Recovery
         OHA                   Office of Health Affairs (DHS)
         OSHA                  Occupational Safety and Health Administration
Table of Contents/Abbreviations 


     ppb       parts per billion
     ppm       parts per million
     QA        quality assurance
     QC        quality control
     RVIA      Recreation Vehicle Industry Association
     SOW       Statement of Work
     STEL      Short-Term Exposure Limit
     THU       temporary housing unit
     TRO       Transitional Recovery Office
     TT        travel trailer
     TWA       Time-Weighted Average
     USPHS     United States Public Health Service
     VOC       volatile organic compound
OIG

Department of Homeland Security
Office of Inspector General
Executive Summary
                Nearly one-third of the trailers provided to victims of hurricanes
                Katrina and Rita were eventually projected to have significant
                potential formaldehyde problems. Federal Emergency
                Management Agency (FEMA) officials, in our opinion, did not
                take sufficiently prompt and effective action to determine the
                extent of the formaldehyde problem in the emergency housing
                units once they were aware that such a problem might exist.
                FEMA officials let nearly a year pass while working with other
                agencies to analyze which of two methods for reducing
                formaldehyde levels in never-occupied units was most effective.
                At the end of that year, they had learned that ventilation was more
                effective than temperature control at reducing formaldehyde levels,
                but that both were effective – information that was already widely
                known, including by FEMA officials, before the study began.

                The FEMA study of unoccupied units not only failed to address the
                occupied units that were of most concern, but its results were not
                fully disclosed. Although FEMA subsequently arranged for the
                Centers for Disease Control and Prevention (CDC) to perform a
                study of formaldehyde levels in occupied trailers, FEMA caused
                delays that blocked the study’s progress on two occasions. In
                general, in our opinion, FEMA did not display a degree of urgency
                in reacting to the reported formaldehyde problem, a problem that
                could pose a significant health risk to people who were relying on
                FEMA’s programs.

                Furthermore, FEMA did not have a formal policy or procedure to
                deal with resident complaints about health problems caused by
                formaldehyde in trailers. This caused confusion and
                inconsistencies in the manner in which complaints were treated.

                In the absence of a formal policy, an informal policy of providing
                used trailers to those who complained evolved. However, without
                an effective testing program, the needs of occupants who were




                   FEMA Responses to Formaldehyde in Trailers

                                     Page 1
reluctant to complain would not surface. Also, without test results
indicating which type of trailer was lowest in formaldehyde,
FEMA could inadvertently replace one problematic trailer with
another problematic unit. Had FEMA known the details that a
study of formaldehyde in occupied units would have produced,
they could have opted to replace all high-formaldehyde-emitting
units with better types of units (park models, mobile homes, or
travel trailers from better-performing manufacturers).

As shown in the following timeline, information concerning the
extent of formaldehyde in occupied FEMA units was not available
until February 2008, more than 2 years after many of the affected
residents moved into FEMA housing units. Effective action to
obtain such information commenced only after the media reaction
to formaldehyde in FEMA trailers grew to disturbing levels,
causing senior DHS management to involve the medical
professionals of DHS’ Office of Health Affairs (OHA) and the
CDC. Unfortunately, delays in producing a necessary authorizing
letter and the lack of existing agreements between FEMA and the
CDC resulted in more than 6 months of negotiations and
preparations before a study could be undertaken. Moreover, just as
the CDC contractor was about to start testing the trailers, FEMA
became concerned that it did not have a public communications
strategy for the Congress, media, and trailer occupants once the
study results were announced. Instead of addressing this issue
while the study was being conducted, FEMA officials had CDC
stop the contract before testing began. This caused another 2­
month delay. The formaldehyde testing was finally conducted in
late December 2007 and early January 2008. Because of the
delays, the test results may have underestimated the extent of
formaldehyde exposure that residents had experienced in the
trailers. Most of the units were 2 years old by the time of the
testing, and the testing was conducted during the winter months
when formaldehyde levels are lowest.




   FEMA Responses to Formaldehyde in Trailers

                     Page 2
Since the results of the formaldehyde testing were announced,
FEMA officials have continued their efforts to develop safer
emergency housing. Also, FEMA and CDC have promoted
ongoing efforts to address the causes and effects of excessive
formaldehyde in trailers.

For the future, FEMA needs to: (1) design and implement better
policies and procedures for identifying and correcting health and
safety issues as they develop; (2) ensure management officials
properly coordinate with professional staff and have access to
relevant information; (3) establish agreements to obtain needed
medical advice and testing and analysis assistance for health and
safety problems; and, (4) establish policies that require and enable
responsible FEMA officials to address health and safety issues in a
timely manner.


   FEMA Responses to Formaldehyde in Trailers

                     Page 3
Introduction and Background 

    On February 14, 2008, approximately 29 months after Hurricane Katrina victims
    were first placed in FEMA trailers, the FEMA Administrator and the CDC
    Director held a joint press conference to announce the preliminary results of
    FEMA-sponsored CDC testing of FEMA travel trailers and mobile homes in
    Louisiana and Mississippi. At that conference, the CDC Director stated they had
    found approximately one-third of the housing units had formaldehyde levels that
    could cause irritation and symptoms such as runny nose, cough, or even breathing
    problems for those residents who were vulnerable to formaldehyde, such as very
    young children, older people, or individuals who already had airway diseases.
    Furthermore, formaldehyde levels in around 5% of the FEMA units were so high
    that even residents without such vulnerabilities could experience formaldehyde-
    related respiratory symptoms. The FEMA Administrator then announced:

             “As a result of these preliminary findings, FEMA is going to continue
             our aggressive action to provide for the safety and well-being of the
             residents of these travel trailers by finding alternative housing.”

    In addition, in response to a question about future emergency housing plans, he
    stated:

           “We will not ever use trailers again. We may use mobile homes…But we
           will not use trailers again.”

    The CDC study, which was released in its final version on July 2, 2008, found
    that while travel trailers generally had significantly higher average formaldehyde
    levels than park models and mobile homes, some units of all three types of
    emergency housing tested at more than 100 parts per billion (ppb) of
    formaldehyde, and the overall mean for the units tested was 77 ppb. The study
    noted that formaldehyde readings tend to decrease as a trailer ages and be higher
    during warmer weather. As a result, the CDC study’s results–which were
    measured during the winter and after the trailers had been lived in for about 2
    years–may under-represent the long-term exposure levels of FEMA trailer
    residents. The report concluded:

           “On the basis of the data reported here and in previous scientific reports
           and publications about adverse health effects associated with exposure to
           elevated formaldehyde levels, CDC recommended that FEMA relocate
           Gulf Coast residents displaced by hurricanes Katrina and Rita and still
           living in trailers.”




                       FEMA Responses to Formaldehyde in Trailers

                                         Page 4
FEMA Trailers
     As a result of hurricanes Katrina and Rita, which struck the Gulf Coast in
     late August and September 2005, more than 300,000 homes were
     destroyed and approximately 700,000 people were displaced. Some of the
     displaced were able to move back into residences after minor repairs.
     Many others returned to find homes and apartments that had been
     obliterated or severely damaged by wind and water, which would require
     months to repair. FEMA immediately began moving emergency housing
     units into the Gulf
     Coast states to allow
     individuals and
     families to move out
     of shelters and into
     trailers that were
     located either on
     homeowners’ lots or
     in FEMA group
     sites or commercial
     “trailer parks” for
     many former
     renters. Some
     homeowners
     relocated to the
     group sites and
     commercial trailer
     parks, just as some      A FEMA Trailer Group Site
     former renters
     relocated in FEMA trailers placed on private land that they or others
     owned. Meeting the needs of the displaced Gulf Coast residents was a
     massive task. FEMA used most of its existing usable inventory of
     housing, purchased existing unused trailers from dealers throughout a
     large part of the country, and contracted for the construction of new units
     to be built to FEMA specifications. The first FEMA trailers were moved
     into the Gulf Coast region on September 3, 2005, and the first unit was
     occupied on September 10, 2005. By August 2006, FEMA had procured
     approximately 144,000 travel trailers, park models, and mobile homes.
     Combining these with prior purchases, FEMA had about 203,000 units in
     its inventory, most of which were used in the Gulf Coast states.




                FEMA Responses to Formaldehyde in Trailers

                                  Page 5
 FEMA had three basic emergency housing unit types (referred to, in the
 aggregate, as “trailers” for the purposes of this report) for the victims of
 hurricanes Katrina and Rita:

Mobile Homes (MH)
                                                     These are more formally called “manufactured housing,”
                                                     but will be referred to as mobile homes throughout this
                                                     report to avoid confusion with other types of housing that
                                                     are manufactured in factories. The mobile homes are
                                                     wider than 8 feet or longer than 40 feet for a total area of
                                                     more than 320 square feet. FEMA mobile homes are
                                                     typically 14 x 60 feet, a total of 840 square feet, and have
                                                     three bedrooms. Mobile homes are designed as permanent
                                                     housing and are regulated by the U.S. Department of
                                                     Housing and Urban Development (HUD).


Travel Trailers (TT)




                                                     These are trailers designed to provide temporary living
                                                     quarters for recreational purposes. They have size limits,
                                                     such as 8 feet wide and up to 35 feet long, or 280 square
FEMA-spec (government contract) travel               feet, and are designed to be towed by a private vehicle.
trailer                                              Travel trailers are considered vehicles rather than
                                                     residences, are usually regulated by state transportation
                                                     authorities, and therefore do not fall under HUD
                                                     regulations. FEMA travel trailers typically have one
                                                     bedroom and a small sleeping alcove.




Off the Lot (commercial) travel trailer
Park Models
                                                     These are in-between travel trailers and mobile homes in
                                                     character. They are generally more than 320 square feet.
                                                     They may be regulated by state transportation authorities,
                                                     but are not governed by HUD standards. FEMA Park
                                                     Models are typically 12 x 36 feet, a total of 432 square
                                                     feet, and have two bedrooms.




                  FEMA Responses to Formaldehyde in Trailers 


                                          Page 6 

Formaldehyde

                           Formaldehyde (H2CO) can be a health problem in
                           some trailers and also has been found to be a
                           problem in other types of residences.
                           Formaldehyde is a colorless strong-smelling gas
                           that is found in nature and is even produced in
                           small amounts by the human body as a normal part
                           of metabolism. It is also an important and widely
    used industrial chemical in the production of fertilizer, some paper
    products, plywood, and a variety of household items including permanent
    press fabrics, some household cleaners, and cosmetics. Gas cookers and
    open fireplaces produce formaldehyde, as does cooking fish and,
    especially, smoking. Most people are exposed to a major source of
    formaldehyde in the air pollutants we breathe, with automobile exhaust
    being a primary source.

    Many building products that contain formaldehyde resins can “off-gas”
    (emit) formaldehyde gas for years, although the off-gassing decreases over
    time. Building materials that can produce formaldehyde include
    particleboard used as subflooring or shelving, fiberboard used in cabinets
    and furniture, and plywood wall panels. Some types of urea formaldehyde
    foam insulation, which are now seldom used, are heavy emitters of
    formaldehyde. Trailers, especially new units, can expose people to higher
    levels of formaldehyde, because formaldehyde gas is emitted by some of
    the materials used in these units and some trailers have less effective
    ventilation and air-exchange systems than conventional homes. In 1984,
    HUD instituted limits on the formaldehyde off-gassing that is permitted in
    materials used in mobile homes. The goal at the time was to have mobile
    homes with formaldehyde levels that were less than 400 ppb resulting
    from these restrictions. HUD restrictions on mobile homes do not apply to
    the manufacture of travel trailers and park models, but some
    manufacturers of such units have said that they follow the HUD standard
    for materials in constructing their units. It has long been recognized that
    higher concentrations of formaldehyde emissions occur in residences that
    have relatively stagnant air, high temperatures, or high humidity.

    Past studies by the CDC and others have shown that people encounter a
    wide range of formaldehyde levels and exposure. In an outdoor rural
    setting, an individual might be exposed to no more than .2 ppb of
    formaldehyde. This rises to 2–6 ppb in suburban outside air, and an
    individual who lives in a heavily populated area or near industries can be
    faced with outside air having 10–20 ppb formaldehyde. Outside air in the


               FEMA Responses to Formaldehyde in Trailers

                                 Page 7
vicinity of a traffic jam can have levels of formaldehyde exceeding 50
ppb. Because formaldehyde is released from many home components and
home products, there is usually more formaldehyde present indoors than
outdoors. However as the following table shows, concentrations of
formaldehyde also vary widely in indoor air.

       Past Formaldehyde Findings in Housing Studies

    Year        Housing Studied                   Average       High
                                                   (ppb)        (ppb)
    1985        Conventional homes                     40           140

    1985        Apartments and condos                     84        290

    1999        Arizona homes                              17       332

    2000        Manufactured homes                        34    unknown

    2000        Site-built homes                          36    unknown

    2005        Conventional homes                        17    unknown

    2005        Mobile homes                            16-25   unknown


Formaldehyde levels in typical residences likely have declined since the
1980s, when the first two studies were performed and when HUD
standards for mobile homes were set. The factors that would contribute to
such a reduction include the reduced presence of urea formaldehyde foam
insulation and reduced emissions levels from the types of composite wood
products now being used. The 1999 study of 189 homes in Arizona found
a much lower formaldehyde level of 17 ppb with a high of 332 ppb. The
2000 study found mean formaldehyde levels of 34 ppb in new
“manufactured homes” and 36 ppb in new “site-built homes.” The 2005
study of 184 single-family homes in three cities found mean formaldehyde
levels of 3 ppb in ambient air, 17 ppb in conventional homes, and 16-25
ppb in mobile homes.




           FEMA Responses to Formaldehyde in Trailers

                             Page 8
Effects of Formaldehyde
     Regardless of the level of exposure, formaldehyde exposure can be a
     health threat. One of the possibilities is the risk of cancer. As the CDC
     reported in the July 2, 2008, study of FEMA trailers:


     “The carcinogenicity of formaldehyde has been extensively studied during the last 30
     years. In June 2004, the International Agency for Research on Cancer (IARC)
     reclassified formaldehyde from ‘probably carcinogenic to humans’ to ‘carcinogenic to
     humans.’ IARC has concluded that formaldehyde exposure causes nasopharyngeal
     cancer. However, the National Institutes of Health Toxicology Program has not adopted
     IARC’s classification change and continues to classify formaldehyde as ‘reasonably
     anticipated to be a carcinogen in humans’ and states that ‘How to quantitatively relate
     measured air levels of formaldehyde to cancer risk is uncertain. Because many other
     factors play a role in the development of cancer and because formaldehyde is ubiquitous
     in the environment, no definitive level can be established that places humans in a “high­
     risk” category. The safest way to reduce risk for cancer is to limit exposure.’”



     CDC officials told us that the risk of cancer from formaldehyde is not a
     threat that has a plateau below which one is safe and above which one is
     vulnerable; rather, it is a threat that just steadily increases with exposure.

     One CDC official has been quoted as saying that there is no safe level of
     exposure to formaldehyde in trailers:

              “Any level of exposure to formaldehyde may pose a cancer risk,
              regardless of duration.”

     However, given the ubiquitous nature of formaldehyde in an industrialized
     nation, such a warning statement only lets people know that there is no
     residence, and in fact no place, where they can be guaranteed safe from
     formaldehyde’s potential long-term effects. While accepting the above
     warnings, we have had to focus this review on the more quantifiable acute
     health effects of formaldehyde.

     The shorter-term acute health effects of formaldehyde exposure vary by
     individual, but overall are more definable than the chronic risk of cancer.
     CDC described these risks in its July 2, 2008, report of formaldehyde in
     FEMA trailers:




                  FEMA Responses to Formaldehyde in Trailers

                                     Page 9
     “Symptoms from acute exposure to formaldehyde commonly manifest as irritation of the
     throat, nose, eyes, skin, and upper respiratory tract. This upper respiratory tract irritation
     can exacerbate symptoms of asthma and other respiratory illnesses…. Acute and chronic
     health effects of exposure to formaldehyde vary by individual. At 800 ppb, nearly
     everyone develops some acute irritative symptoms; however, formaldehyde-sensitive
     persons have reported symptoms at levels around 100 ppb. Additional studies have found
     health effects at 100 ppb in sensitive persons chronically exposed to formaldehyde.”



     The CDC report also said that most individuals detect the odor of
     formaldehyde only when concentrations reach 500 ppb; therefore, some
     individuals can experience symptoms without being able to detect the odor
     of formaldehyde.

     Some experts believe that 300 ppb is another possible decision point in the
     evaluation of formaldehyde in residences. In trailers that are above that
     level, the CDC director stated “even people without vulnerability might
     experience some respiratory symptoms if they spent time in those homes.”

Formaldehyde Standards
     Although workplace standards and recommendations for allowable
     exposures to formaldehyde have been implemented to protect workers
     who are exposed to formaldehyde, there is far less guidance as to what
     levels should be avoided in residences. The only federal standard for
     formaldehyde is the Occupational Safety and Health Administration
     (OSHA) “allowable time-weighted average” for allowable exposure to
     formaldehyde in workplaces, which is 750 ppb for 8 hours.

     There are no standards for formaldehyde exposure in residences. A
     standard that is acceptable in the workplace could be inappropriate for a
     residential setting, where there are more likely to be children, the elderly,
     and persons who are not healthy, and where most individuals spend more
     hours each day than in their workplace. HUD standards governing the
     materials that are acceptable in mobile homes had a 1984 target of keeping
     formaldehyde exposures in mobile homes below 400 ppb. However, HUD
     standards do not apply to travel trailers or park models, and a 400 ppb
     level is far higher than many experts currently recommend. Apart from
     these limited standards, there are some recommendations and guidance
     from federal agencies but they tend to vary widely.




                   FEMA Responses to Formaldehyde in Trailers

                                      Page 10
The following table sums up some of the opinions and recommendations
concerning formaldehyde published by federal agencies:


                       Federal Government

             Formaldehyde Goals, Standards and Targets

 Occupational Regulatory Agencies
 Department of Labor, Occupational Safety and Health Administration
 (standards)
      � 0.75 parts per million (ppm) (750 ppb)–Time Weighted Average
         (TWA) for 8 hours exposure to formaldehyde.
      �  2.0 ppm (2000 ppb) – Short-Term Exposure Limit (STEL) for 15
         minutes without suffering health effects.

 Environmental Regulatory Agencies
 U.S. Environmental Protection Agency (recommendations)
     � 0.1 ppm (100 ppb) and above of formaldehyde exposure will cause
         watery eyes; burning sensations in the eyes, nose and throat; nausea;
         coughing; chest tightness; wheezing; skin rashes; and allergic
         reactions.
     � 0.9 ppm (900 ppb) or above formaldehyde exposure for more than 8
         hours in a lifetime is dangerous.

 Consumer Regulatory Agencies
 U.S. Consumer Product Safety Commission (recommendation)
     �   Formaldehyde exposures above 0.1 ppm (100 ppb) will cause watery
         eyes; burning sensations in the eyes, nose and throat; nausea;
         coughing; chest tightness; wheezing; skin rashes; and allergic
         reactions.

 Housing Regulatory Agencies
 Department of Housing and Urban Development, Office of Manufactured
 Housing (targeted goal and standards for components)
    � 0.4 ppm (400 ppb) – Targeted maximum for ambient levels of
         formaldehyde in manufactured housing..

 Scientific/Public Health Agencies
 Department of Health and Human Services, National Institute of
 Occupational Safety and Health (recommendations)
     � .016 ppm (16 ppb) TWA for 8 hours exposure to formaldehyde.




             FEMA Responses to Formaldehyde in Trailers 


                               Page 11 

Causes of Formaldehyde Problems in FEMA Trailers
    Prior to hurricanes Katrina and Rita, complaints about formaldehyde levels in
    FEMA trailers had not surfaced and, therefore, FEMA officials were unaware that
    this should have been an issue of concern. Furthermore, because this was never
    an issue of concern in past disasters, the contracts under which FEMA obtained
    the trailers did not contain protections against excessive formaldehyde
    concentrations. Nor were the FEMA production oversight and product
    acceptance procedures sufficient to ensure that trailers did not contain
    unacceptable levels of formaldehyde.

    The FEMA trailers provided to the Gulf Coast states following hurricanes Katrina
    and Rita encountered a “perfect storm” for the development of formaldehyde
    problems:

           �   All of the units were some form of manufactured housing and therefore
               tended to have more of the manufactured wood products that can emit
               formaldehyde gas.
           �   Most of the units were travel trailers, which are not designed to be permanent
               residences, tend to have a higher proportion of formaldehyde-emitting
               products per volume of internal air space and also usually have less capable
               ventilation systems.
           �   Most of the trailers were new and a great percentage were brand new, having
               been hurried from the factory to the then-homeless residents rather than
               sitting in a dealer’s lot for a period of time as trailers usually do.
           �   The manufacturers had been under pressure to speed the delivery of quickly
               completed units to the Gulf Coast; such quick assembly can lead to problems
               such as wider gaps in seams of covering materials, allowing increased
               formaldehyde emissions.
           �   Almost all the trailers were going to locations that were unusually hot and
               humid during much of the year, creating two of the prime factors in
               increasing formaldehyde levels.
           �   Ideally, units should be ventilated and air-conditioned to reduce
               formaldehyde levels, but it is difficult and expensive to do both at once
               during the summer in the Gulf Coast.
           �   Residents are also advised to spend more time outside to limit their exposure
               to formaldehyde; but in the crowded, often barren, multiple-trailer group
               sites where many families were placed, it was probably more pleasant to
               remain inside, especially for people with mobility problems.
           �   Smoking and cooking can contribute markedly to indoor formaldehyde levels
               in any residence, but the effect would be compounded in residences having
               as small a volume of air as the FEMA trailers.
           �   The susceptibility of individuals to formaldehyde varies, with children, the
               elderly, and persons with prior health problems being most vulnerable. High
               numbers of each of these vulnerable population groups were living in FEMA
               trailers.



                       FEMA Responses to Formaldehyde in Trailers

                                        Page 12
In retrospect, it is not surprising that formaldehyde problems would develop in
FEMA trailers. Many of the FEMA trailers, whether purchased from dealers or
manufactured, were vulnerable to high formaldehyde levels. Most of the “off the
lot” models that were purchased from dealer inventory right after the hurricanes
were built and sold under regulations that placed no limits on formaldehyde
levels. Only the mobile homes had regulations governing formaldehyde; travel
trailers and park models that were commercially available had not been required
to meet any maximum formaldehyde level standards. When FEMA contracted for
the production of “FEMA-spec” mobile homes the contract specifications
required that: “These units must meet and comply with all appropriate HUD
requirements, regulations, standards, and guidance.” Among the applicable
HUD standards was the requirement that materials used in mobile home
construction must meet HUD restrictions on formaldehyde off-gassing. But the
HUD restrictions, as drafted in 1984, were only intended to keep formaldehyde
concentrations in mobile homes below 400 ppb; current mobile homes would
generally test well below that level. When the FEMA-spec mobile homes were
finally tested in January 2008, none of the units tested at more than 400 ppb of
formaldehyde.

The FEMA contracts for the production of travel trailers required that “units”
shall meet industry standards. The contracts did not cite the HUD standards
concerning formaldehyde in materials, which apply only to mobile homes. Nor
had such mobile home standards been required of FEMA travel trailers in the
past. Some CDC officials told us that even if the travel trailer materials had been
required to meet HUD standards, the smaller interior airspace relative to
formaldehyde-emitting materials and the
weaker ventilation systems of some of
these units could still have resulted in
higher formaldehyde concentrations than
in mobile homes. When FEMA did test
the travel trailers in January 2008, six
units from four different manufacturers
were found to have formaldehyde
concentrations greater than 400 ppb. It
is unclear whether occupants’ habits
such as smoking, may have affected
these results.                              Interior of a typical FEMA-spec travel


The quality control/quality assurance (QC/QA) processes that FEMA put in place
for the trailer procurement contracts were not designed to prevent excessive
formaldehyde in FEMA trailers. FEMA had four inspectors, but they were at the
plant of only one of the manufacturers. In any case, excessive formaldehyde
levels were not among the items that the FEMA inspectors were looking for.
Although pre-acceptance inspections were conducted at FEMA’s receiving points,


                   FEMA Responses to Formaldehyde in Trailers

                                    Page 13
such as the Hope, AR, storage and staging facility, formaldehyde levels were not
among the conditions that were examined.

Conclusions
       The FEMA mobile homes were produced under contracts that would limit
       the amount of formaldehyde that was off-gassed by their materials, but
       might not result in units that had currently acceptable levels of
       formaldehyde. Travel trailers produced under FEMA contracts were not
       restricted at all in the levels of formaldehyde they might have. The
       QA/QC procedures in place during the manufacture of the units would not
       have prevented excessive formaldehyde levels, and the FEMA inspection
       and acceptance procedures would not have detected excessive
       formaldehyde levels. The travel trailers obtained on the commercial
       market did not offer any better protection against excessive formaldehyde
       levels. FEMA has taken steps to address some of these problems, but we
       recommend institutionalizing improvements for all emergency housing
       units.

       Recommendations
       We recommend that FEMA:

              Recommendation #1: Include specifications in contracts for
              future purchases of mobile homes, travel trailers, and park models
              that provide for acceptable maximum formaldehyde levels in units
              that are delivered.

              Recommendation #2: Establish quality assurance/quality control
              requirements to ensure that excessive formaldehyde levels will be
              prevented, and institute inspection procedures to detect and reject
              units with unacceptable formaldehyde levels.




                  FEMA Responses to Formaldehyde in Trailers

                                   Page 14
FEMA Responses to the Developing Formaldehyde Problem
    As formaldehyde problems started to surface, information concerning the nature
    and extent of the formaldehyde problem was not promptly relayed to appropriate
    FEMA officials. FEMA officials were not initially aware of the seriousness of the
    problems that some residents of FEMA trailers were encountering. Based on the
    information available, FEMA officials may have believed that they acted
    appropriately to respond to the formaldehyde issue. In hindsight, however, it is
    now clear that they should have reacted in a more timely manner to determine the
    extent and cause of the formaldehyde problem and taken a more aggressive
    approach to correcting the problem. In the future, FEMA needs to have protocols
    in place to ensure that indications of potential health or safety problems for
    FEMA clients are promptly addressed, i.e., determine the nature and extent of the
    problem, prescribe effective remedial actions to address the problem, and notify
    all affected clients. FEMA also needs to institute training on how to handle health
    and safety issues as part of the training provided to FEMA employees who have
    direct contact with FEMA clients.

    Early Indications of Formaldehyde Problems

           The first indications of possible formaldehyde problems in FEMA trailers
           came in October 2005, just 1 month after trailers were first shipped to the
           Gulf Coast region. Between October 2005 and January 2006, OSHA
           officials conducted more than 100 formaldehyde tests in the Gulf Coast
           region, many of which were conducted in FEMA trailers. OSHA’s
           apparent focus of the tests was to determine whether there were any
           problems with workplace safety. Some of the trailers tested had high
           formaldehyde readings. For example, three FEMA trailers that were
           tested by OSHA officials in Purvis, MS, on November 11, 2005, had
           formaldehyde level readings of 280, 520, and 590 ppb. OSHA gave these
           results to officials of the contractor managing the site where the trailers
           were located. However, the results were not forwarded by the contractor
           to FEMA officials. Finally, on March 21, 2006, OSHA officials faxed
           FEMA the results of the more than 100 formaldehyde tests that had been
           conducted at various sites. Many of those tests had results that indicated
           formaldehyde problems, but FEMA safety officers and other FEMA
           officials said that they had not been previously aware of the tests, let alone
           the problematical results.

           On March 16, 2006, a Biloxi, MS, television station reported on a local
           couple who were having formaldehyde problems with the FEMA trailer
           they had received in December. The couple said that after living in the
           trailer, they had developed burning eyes, scratchy throats, and sinus


                      FEMA Responses to Formaldehyde in Trailers

                                       Page 15
     headaches. They had bought an air purifier and had tried ventilating the
     trailer, but nothing brought them relief from these symptoms.

     On April 6, 2006, one of the FEMA contractors hired a testing company to
     analyze the formaldehyde levels in a Baxterville, MS, FEMA trailer in
     which occupants had experienced formaldehyde symptoms, such as
     burning eyes, since first occupying the trailer in February. After testing
     the trailer for 8 hours with the air-conditioning off, the testing company
     reported that formaldehyde readings exceeded 1,000 ppb. The company
     reported: “These data show that both the OSHA and NIOSH [National
     Institute for Occupational Safety and Health] limits for formaldehyde were
     exceeded in this FEMA trailer.”

     On April 11, 2006, the Mississippi FEMA staff reported the case of a
     locally purchased FEMA trailer that was tested for formaldehyde at the
     request of the occupant. They reported that when the testing was
     performed with the windows closed and the air-conditioning off, the end
     result was above OSHA workplace standards, and that “the tester himself
     developed eye-watering symptoms of exposure.”

     On May 17, 2006, allegations that the problem with formaldehyde in
     FEMA trailers might be widespread were nationally publicized when the
     Sierra Club announced:

            “A new study conducted by the Sierra Club shows that the indoor
            air quality of FEMA trailers contains excessive levels of
            formaldehyde, a carcinogen that can cause various forms of
            cancer with repeated exposure. The Sierra Club has tested the
            indoor air of 31 FEMA trailers in Mississippi and Louisiana to
            determine formaldehyde levels. Only two tests were at or below
            the 0.1 parts per million [100 ppb] maximum safety limit
            recommended by the EPA and the American Lung Association.
            Several trailers were more than three times over the limit.”

FEMA Officials’ Reactions to the Formaldehyde Issue
     Some FEMA officials tended to discount the Sierra Club findings. They
     noted that the announcement had not provided details concerning the
     testing procedures and wondered whether the procedures followed in the
     Sierra Club tests might have led to higher readings than would have been
     the case with other procedures. One FEMA official commented on May
     18, 2006:




                FEMA Responses to Formaldehyde in Trailers

                                 Page 16
       “I just can’t understand why out of 15,000 trailers we had in
       Florida during the 04/05 response/recovery that we didn’t have
       one complaint about formaldehyde. It’s really strange that in
       Louisiana they don’t have a single one either, and that no one
       complained until the press got this one guy in Mississippi, and now
       we have a number of complaints in MS. Really strange!”

Other FEMA officials, however, had already recognized that the best way
to answer any questions related to the Sierra Club report and determine the
extent and nature of the problem facing FEMA and its clients was for
FEMA to have the appropriate formaldehyde testing conducted as soon as
possible. And media inquiries soon were received asking:

       “Will FEMA start doing their own testing of Formaldehyde in TT’s
       [travel trailers]?”

This was not the first time the concept of testing to determine the nature,
extent, and causes of any formaldehyde problem in FEMA trailers had
been raised. Following the March 16, 2006, television report about the
couple who were experiencing formaldehyde problems with their FEMA
trailer, FEMA officials in the Gulf Coast region exchanged emails
concerning what actions were called for. One asked if random testing of
trailers could be required of manufacturers. Another recommended:

       “…either MHOPS [Mobile Home Operations] or Logistics needs to
       test units from various manufacturers to see if there are any
       patterns or only an isolated incident.”

One of the FEMA field attorneys noted the issues that Gulf Coast officials
faced:




He added that:




           FEMA Responses to Formaldehyde in Trailers

                            Page 17
In another email, 7 days later, the same official noted:




By May 16, 2006, some FEMA officials were notified of the dangers and
potential consequences of excessive formaldehyde exposure. On that day,
a FEMA safety officer sent out an email to regional officials in Alabama
with a 1½-page information sheet titled “Formaldehyde” from the
Environmental Health Center of the National Safety Council. The
information sheet noted that formaldehyde in excess of 100 ppb can cause
“watery eyes; burning sensations in the eyes, nose and throat; nausea;
coughing; chest tightness, wheezing; skin rashes; and other irritating
effects.” It further noted that sensitive people can experience effects
below 100 ppb and that the World Health Organization recommends that
exposure should not exceed 50 ppb. The information also included a
warning that: “Formaldehyde has caused cancer in laboratory animals
and may cause cancer in humans; there is no known threshold level below
which there is no threat of cancer. The risk depends upon amount and the
duration of exposure.”

On June 13, 2006, a Mississippi Sierra Club official wrote the Acting
Assistant Administrator, Disaster Assistance Directorate, to warn him:

       “…94 percent of FEMA trailers tested by Sierra Club recently in
       Mississippi had formaldehyde levels over the safety limits set by
       EPA.”

She recommended that:

       “…since FEMA consistently denies there is a problem, FEMA
       should undertake testing to prove that formaldehyde levels are not
       a concern.”

Before the Sierra Club results were announced, some Mississippi FEMA
officials had already attempted to establish a formaldehyde-testing
program. By May 4, 2006, Mississippi FEMA officials had announced
that:
        “The JFO [Joint Field Office] here in Mississippi is instituting a
        formaldehyde testing program and we will be testing for
        formaldehyde fumes in our trailers.”

The Mississippi FEMA officials had submitted a contract request to
institute such a program but it was going slowly because the contracting


           FEMA Responses to Formaldehyde in Trailers

                            Page 18
office had a very limited staff. On May 23, 2006, the contracting contact
person had announced that he still did not have a contract for
formaldehyde testing because his office had kept putting the request “on
the back burner.” They could get a contract at any time, but he wrote:

       “Safety has given the contractor personnel responsible for taking
       the phone calls, instructions on how to respond to requests for
       testing. The instructions are basically, ventilate the trailer. Safety
       does not recommend testing. We can do a contract, but the
       general consensus is we are opening a can of worms.”

The official requesting the formaldehyde testing was apparently not
convinced and the next day emailed:

       “OK, let’s get it started today. Please get with Contracting, Safety,
       OGC [now OCC] and [management official] and let’s get a SOW
       [Statement of Work] written, accomplish a 60-1 and get it to
       contracting. This is a hot issue, getting hotter each day.”

The immediate response from the contracting officer was:

       “I’m getting conflicting messages here; the safety officer is still
       recommending not to do testing and has not been given any
       guidance from the FCO [Federal Coordinating Officer] or Chief of
       Staff to do so. He makes a good case for not testing and I believe
       if someone is pushing this, that person needs to hear what the
       safety officer has to say. The bottom line here is that if someone
       has a trailer that they can’t live in because of odors, then MHOPS
       needs to give them a new trailer. Testing is not going to make the
       odor go away.”

This appears to have convinced the requesting official, who responded:

       “This does make some sense here. If they have a trailer that is
       causing discomfort then we may need to send them one that has
       been around for a while. Testing will only confirm that there is a
       problem. We need to fix the problem rather than apply a band-
       aid.”

With the collapse of that testing effort, there would not be any significant
or widespread FEMA testing of formaldehyde in occupied units for more
than 18 months.




           FEMA Responses to Formaldehyde in Trailers

                            Page 19
     Even though some safety officers had recommended against testing
     occupied units, FEMA Occupational Safety and Health officers did
     continue to test unoccupied units in FEMA staging areas to ensure that
     employee formaldehyde exposure levels were below the OSHA
     permissible exposure limit. However, we were told even that effort ended
     after FEMA officials told Occupational Safety and Health Office
     headquarters officials to have all such testing stopped. More than a year
     later, the Occupational Safety and Health Office was finally allowed by
     senior FEMA officials to resume testing to protect FEMA employees.

     FEMA officials did make some attempts to identify the extent of the
     formaldehyde problem, but they did so by trying to get an accurate tally of
     complaints from occupants rather than testing occupied units. However,
     such information was not formally tracked, and on July 21, 2006, FEMA
     local officials had been directed to not put the growing number of
     formaldehyde complaints in to the National Emergency Management
     Information System “because it may not be true.” By early October 2006,
     the total number of formaldehyde complaints to date was estimated to
     have been 50 in Mississippi and 20 in Louisiana. These figures were later
     used as an ongoing tally, but FEMA’s informal system could not
     determine an accurate estimate of the number of occupants having
     problems from formaldehyde in their trailers. A more accurate estimate of
     the number of occupants reporting problems from formaldehyde can be
     found in the August 10, 2007, formaldehyde factsheet put out by the
     FEMA Disaster Assistance Directorate. According to the factsheet, as of
     August 9, the FEMA hotline for emergency housing occupants had
     answered 8,238 calls concerning formaldehyde. Of those callers, 913
     requested to move out of their trailer and receive rental assistance, 1,554
     applicants requested to have their trailer tested for formaldehyde, 2,247
     had called just to report specific health concerns such as burning eyes and
     respiratory problems, and 362 applicants requested to exchange their
     trailer for another FEMA trailer. These totals may reflect multiple calls
     from one occupant.

FEMA Policies on Addressing Formaldehyde Problem Cases
     FEMA policies regarding what was to be done for individuals who
     complained of adverse effects from formaldehyde in their trailers were
     unclear and FEMA clients were not treated consistently. In June 2006, the
     stated policy was that individuals who complained about formaldehyde
     should be directed to air out their units and run their air-conditioners, and:

            “As a final recommendation, we would swap out the unit for a
            used, renovated unit which would not present the off-gassing


                FEMA Responses to Formaldehyde in Trailers

                                 Page 20
       problems experienced in the new units.… Further, OGC [now
       OCC] has advised that we do not do testing, which would imply
       FEMA’s ownership of this issue.”

In mid July 2006, however, a FEMA official who was trying to get a swap
of a used unit for residents who were having health problems from
formaldehyde fumes was told by a senior FEMA official that such swap
requests could not be approved unless there was medical documentation in
the applicant’s files.

On July 19, 2006, FEMA OCC officials advised:




These policies were apparently not clearly and extensively communicated.
In August 2006, local FEMA officials who had been told to “make sure
they do all the recommended actions” before a swap complained:

       “We have had little direction in dealing with formaldehyde issues.
       What are the recommended actions and policies for dealing with
       these issues?”

Eight months later, there was apparently still some confusion in the field
as to what the policy was and one FEMA official described telling a
resident in April 2007 that:

       “…no way were we going to swap a TT [travel trailer] just because
       it smelled like formaldehyde.”

Some FEMA officials took the above “hard line” position even though
FEMA staff had reported on how bad the effects of the formaldehyde
fumes could be. For example, on October 13, 2006, a FEMA employee
reported on a visit to a travel trailer whose occupant had complained of
formaldehyde fumes:

       “Contacted her by phone and obtained permission to enter the TT.
       It is a nice cool day outside and was nice and cool in the TT, but
       after about 5 minutes in the unit my nose/sinus began to burn.
       Have been out of the unit for approx. 15 minutes and still have
       burning sensation in my nostrils. Don’t believe this unit would be
       a healthy environment for young children.”


           FEMA Responses to Formaldehyde in Trailers

                            Page 21
On March 22, 2007, the FEMA Mobile Home Operations Maintenance
Coordinator issued “guidelines to handle applicant request for
‘Formaldehyde Issue’.”

       “First visit the applicant at the unit. Document your findings.
       Explain the procedure to ventilate the unit by opening the windows
       and letting the air flow. This appears to have the most positive
       effect. …Have the applicant ventilate for 48 hours. …If the
       applicant is still experiencing formaldehyde-related problems
       inform the applicant we will swap the unit for a previously
       occupied unit that did not have any formaldehyde problems.”

By June 12, 2007, the issue was settled because FEMA policy had been
changed to:

       “Where a complaint involving formaldehyde comes through, the
       unit involved is to be deactivated. Rather than offering a
       replacement TT, a rental unit is to be offered instead.”

This policy was formalized on July 31, 2007, in the “FEMA Interim
Direction on use of Temporary Housing Units,” which mandated that
when the current eligible occupant of any FEMA-owned travel trailer or
park model requested a replacement, he or she would be offered rental
assistance or, if available, a mobile home - but not a replacement trailer.

It is clear that the lack of a definitive, consistent, and well-promulgated
FEMA policy resulted in some cases of problem trailers not being handled
consistently. In May 2006, a Louisiana resident and his family became ill,
reportedly from the formaldehyde in their trailer. They were told to
ventilate but that did not cure the problem. The occupant moved his
family into a hotel at his own expense and requested a swap of trailers.
However, he had a difficult time swapping trailers because FEMA
officials wanted a doctor’s “excuse” and worried about setting a
precedent. In another case, a Long Beach, MS, trailer occupant who had
lung disease had to sleep in her car after her physician told her to stay out
of her trailer. She had called maintenance more than once about the
problem, but had not received an effective response. Long Beach FEMA
officials also reported the case of another woman who was told that a
maintenance and deactivation contractor would only tell her to open the
windows and air the place out. Another resident called about
formaldehyde problems in October 2006 and February 2007, but
maintenance did not follow-up on either complaint. Finally, the resident
was in contact with a television news organization, and they widely
publicized his case.


           FEMA Responses to Formaldehyde in Trailers

                            Page 22
FEMA Efforts to Assist Trailer Residents With Formaldehyde
Complaints

     In general, despite the lack of a clear policy to address formaldehyde
     problems, most local FEMA officials appeared to respond well to
     complaints from residents. Gulf Coast FEMA officials told us that, while
     they were not specifically trained in addressing health issues, they listened
     and were as responsive as possible, to residents’ complaints of problems
     with FEMA trailers. Many FEMA employees who assisted the trailer
     occupants were themselves local residents who had been displaced into
     trailers and understood very well the problems of living in a trailer.
     According to the available emails concerning formaldehyde problems,
     most FEMA employees did what they could to assist those with problems
     in a setting where the lack of available housing severely limited the
     options they had available. FEMA officials did move those who
     complained of formaldehyde problems into replacement units when it
     became clear that ventilating the unit would not correct the problem.
     Because of the lack of testing, however, FEMA staff could not predict
     which units would have problems, so residents were moved into used units
     that staging-area staff tried to clean thoroughly before releasing. There
     were many instances where officials worked to get priority treatment for
     replacement of units that had been observed to be particularly bad.

     FEMA local officials also worked to inform trailer occupants concerning
     how to minimize the formaldehyde problem most effectively in their
     trailers. In July and August 2006, more than 268,000 brochures were
     distributed to FEMA trailer occupants in all of the affected states. The
     brochures emphasized that the first thing that residents could do was to
     ventilate the unit by opening doors and windows. The other effective
     action was to keep temperatures moderate and lower the humidity. These
     steps would, of course, require running the units’ air conditioners, which
     use a lot of electricity, especially when doors and windows are open.
     However, some residents could not afford the expense of using a lot of
     electricity. FEMA local employees pointed out this problem, and some
     tried to find a way for FEMA to pay for electricity in the units to enable or
     encourage residents to keep the formaldehyde levels down. But they were
     notified that the regulations do not allow for this, and that:

            “The only way we pay utilities is if the TT is part of the pad lease
            agreement that utilities are included.”

     Some local employees even got themselves in “hot water” for attempting
     to deal with the formaldehyde problems. One employee wrote on August
     30, 2006, concerning a unit that appeared to have a particularly high level


                FEMA Responses to Formaldehyde in Trailers

                                 Page 23
of formaldehyde. He thought the unit might make a good “case study” for
examining the formaldehyde problem, and was apparently concerned that
such a unit not be placed back in service where it might be issued to
another family. He wrote that:

       “Once deactivated we will mark the unit as ‘non-habitable’ and
       ship to BR staging area. If you would like to have the unit tested,
       we can track and provide information, etc. Otherwise we will
       designate it for the ‘boneyard’.”

A FEMA official responded:

       “I am very concerned that you are recommending a level of
       habitability for the units when no other federal agency has set a
       threshold for residential formaldehyde levels. …While we would
       like for you to identify units that were swapped for formaldehyde
       complaints, I would like to ask that you do not make suggestions of
       ‘non-habitable’ and recommendations for putting units in
       ‘boneyards’ in the future without engaging [appropriate FEMA
       officials].”

The employee who had written the original email replied that he was:

       “Sorry if I got things stirred up - just trying to take care of
       business.”

Nearly 1 year later, on July 20, 2007, the FEMA Administrator wrote a
memorandum to all FEMA employees announcing:

       “Over the last two months, FEMA has significantly increased its
       focus on formaldehyde-related health concerns raised by Gulf
       Coast disaster victims. …Earlier this week, I was troubled to learn
       that some FEMA employees may have not acted with the speed and
       sensitivity I expect in addressing the concerns raised by some
       victims of Hurricanes Katrina and Rita. I will deal with these
       issues swiftly. FEMA’s first priority is the health and welfare of
       disaster victims we serve. Anything less is totally unacceptable. I
       know that the FEMA team I am privileged to lead does hold sacred
       this same commitment.”

This message should have provided some satisfaction to the many FEMA
employees who had been doing their best to identify the cause and extent
of the formaldehyde problem and to assist those who were affected by it in
their residences.


           FEMA Responses to Formaldehyde in Trailers

                            Page 24
Effects of FEMA’s Initial Responses to Formaldehyde
     The consequences of FEMA’s initial decision not to undertake testing to
     determine the cause and extent of formaldehyde problems in occupied
     units are difficult to assess. There were not many alternatives to the
     FEMA trailers for those who wanted to remain in the Gulf Coast area.
     Perhaps, had the extent and seriousness of the formaldehyde problem been
     made known through prompt and timely testing, more residents would
     have vacated the trailers. Most, however, would probably have remained.
     Some residents might have then been more likely to follow the advice to
     ventilate and air-condition, but many probably could not afford to do so.
     At the least, more residents would have been aware of the seriousness of
     the formaldehyde problem and might have sought assistance. The FEMA
     relief system in place depended on the occupants to complain about
     problems with their units in order to get assistance. However, some
     people are not prone to complaining and may have just quietly endured
     adverse health conditions. For example, in May 2006 a Mississippi
     FEMA official reported that:

            “…I happened to go over to see a Sergeant in the Army National
            Guard the other day on other FEMA business and he happened to
            mention that he has had a FEMA trailer for 5 or 6 months now and
            he has had problems with smell, sore throat, burning eyes; he says
            he airs out the trailer every day but it only helps for a little while
            and then it is worse than ever. Seems like after a few weeks of
            airing the problem should be gone. I am not an expert but it
            doesn’t sound right. He knows it’s formaldehyde. This guy served
            in Iraq and says he’s lived in worse and doesn’t want to look a gift
            horse in the mouth. But it seems a shame he has to live under
            those conditions.”

     Such individuals who are not prone to complaining might have come in
     for assistance had FEMA tested the types of trailers they occupied and
     informed all residents of the seriousness of the formaldehyde problems.
     Other individuals who might have been more likely to come forward for
     help are those persons who are sensitive to formaldehyde, including
     persons with preexisting conditions such as asthma. Many “sensitive”
     individuals have conditions that are aggravated by levels of formaldehyde
     that are below the level at which formaldehyde can be smelled. Therefore,
     without any testing, they might not have been aware that the formaldehyde
     in their trailers was a reason their health conditions were deteriorating.




                FEMA Responses to Formaldehyde in Trailers

                                 Page 25
Conclusions
     FEMA has an obligation to its clients to inform them whenever there is the
     possibility of health or safety problems inherent in their use of FEMA
     products or programs. In addition, FEMA should provide residences that
     are reasonably safe for the occupants. Appropriate FEMA officials did not
     immediately learn of the formaldehyde problems that were first identified
     in FEMA trailers. When they did learn of the formaldehyde problems,
     nearly a year passed before any testing program was started and nearly 2
     years passed before occupied trailers were tested and the occupants were
     informed of the extent of formaldehyde problems and potential health
     threats in their trailers. FEMA field staff did what they could to help those
     residents who complained of problems, but they were hindered by the
     paucity of available options and by the lack of a consistent and well-
     promulgated policy on what corrective actions should be taken.

     Recommendations
     We recommend that FEMA:

            Recommendation #3: Promulgate a policy that any issue or
            problem that might affect the health and safety of occupants of
            emergency housing must be quickly forwarded to the responsible
            headquarters offices as defined in this new policy.

            Recommendation #4: Train FEMA and contractor “front-line”
            employees who have contact with disaster victims on how to
            respond to health and safety issues.

            Recommendation #5: Establish a policy that whenever a health
            or safety issue arises concerning its clients, all reasonable actions
            will be taken to determine the nature, cause, extent, and
            consequences of the problem.

            Recommendation #6: Whenever a problem might affect the
            health and safety of FEMA clients, such as occupants of
            emergency housing, promulgate consistent and effective guidance
            to the field concerning how to address such problems.




                FEMA Responses to Formaldehyde in Trailers

                                 Page 26
Formaldehyde Testing Effort for Unoccupied Trailers

    Once FEMA officials instituted a formaldehyde testing effort, it focused on
    determining the extent of formaldehyde in new, unoccupied trailers and on
    methods to reduce those levels rather than focusing on, or giving equal focus to,
    identifying the extent of the formaldehyde problem in occupied units and the
    causes of those problems. Several management issues slowed the progress of this
    unoccupied-units testing program. When the initial results of the tests of
    unoccupied units were superseded by a cautionary letter from the testing
    authority, this was not conveyed to the appropriate FEMA officials. This may
    have resulted in pronouncements to Congress and the public that were more
    optimistic concerning the nature of the formaldehyde problem than was
    warranted, and possibly delayed the development of a testing program for
    occupied trailers.

    Initiation of a FEMA Formaldehyde Testing Program
           On June 27, 2006, an extensive exchange of emails took place among
           senior FEMA staff in the Gulf Coast area and headquarters concerning a
           FEMA trailer resident who had died in his trailer at a site in St. Tammany
           Parish, LA. The resident was reported to be an older man who had heart
           problems, and there was no reason to conclude that his death was due to
           the formaldehyde level in his trailer. However, his neighbors had said that
           he told them he was reluctant to use his air-conditioner because he was
           afraid it would make the formaldehyde worse. This tragic event, and the
           concerns it raised, caused those FEMA officials who had advocated
           testing for formaldehyde in order to determine the full nature of the
           problem to once again raise this issue. One FEMA official noted:

                  “In addition, we need to move past OGC [now OCC] objections to
                  possible testing and move forward with our safety notice (similar
                  to the one HUD uses for Mobile Homes). I believe this issue is
                  well past the point of ‘wait and see.’”

           The Acting Assistant Administrator, Disaster Assistance Directorate,
           responded that he had discussed the situation and supported the concept of
           tasking EPA to perform a full assessment of the formaldehyde problem
           and make recommendations.




                      FEMA Responses to Formaldehyde in Trailers

                                       Page 27
                 On June 28, 2006, officials from FEMA, EPA, the United States Public
                 Health Service (PHS), and CDC/ATSDR held a conference call.1 One of
                 the goals of the conference call was to identify an organization to test the
                 air quality of the deceased’s unit and determine whether random sampling
                 of all FEMA trailers was necessary. Among the resolutions agreed upon
                 in the conference call were:

                         “FEMA Safety is to investigate and sample [the deceased’s trailer],
                         Request that the Consumer Product Safety Commission vet FEMA
                         trailers against the industry standard” [and] “Identify an
                         independent, non-governmental agency to conduct tests of indoor
                         air quality and evaluate policies.”

                 On July 7, 2006, another conference call concerning a formaldehyde-
                 testing program was scheduled. In a briefing document to prepare for that
                 call, the authors wrote that, because of health concerns and press articles
                 concerning FEMA housing units, FEMA staff had entered into discussions
                 with CDC/ATSDR and EPA regarding the advisability of, and
                 recommended procedures for, random formaldehyde testing. But there
                 were concerns expressed that air quality testing might not be an effective
                 strategy because:

                         “There is a lack of consensus among various agencies regarding
                         acceptable levels of formaldehyde.…The results can be influenced
                         by many outside factors, such as new furniture or draperies,
                         smoking in the unit with no ventilation…New units less than two
                         months old will frequently show higher levels of formaldehyde….”

                 During a July 11, 2006, conference call, some experts warned that
                 preliminary research indicated that a health baseline for formaldehyde
                 would probably be much lower than expected and the formaldehyde levels
                 that would be found in testing could be much higher than the health
                 baseline level. During the call, it was agreed to run tests that could
                 “establish the difference between ventilated and unventilated units.” This
                 would be done by pulling together a valid sample of unused units from
                 each manufacturer, leaving half the units closed up for 2 weeks, running
                 the air-conditioners in the other units for 2 weeks, and then testing all the
                 units. This plan would evolve and become more detailed over the next 2
                 months, but it remained the basic concept for testing these never-occupied
                 trailers.


1
 The Centers for Disease Control and Prevention (CDC) and Agency for Toxic Substances and Disease
Registry (ATSDR) are separate agencies, but both are divisions of the Department of Health and Human
Services (HHS) and have the same senior leadership.


                              FEMA Responses to Formaldehyde in Trailers

                                                Page 28
Conduct of Testing of Unoccupied Units
     By July 18, 2006, EPA officials had developed and submitted to FEMA a
     proposed “Quality Assurance Sampling Plan for Formaldehyde Sampling
     at FEMA Temporary Housing Units.” FEMA officials reviewed the plan
     and raised some concerns, including who would perform the “data
     management-result interpretation and recommendations,” and whether
     there would be enough unused units available to produce a valid sample of
     each manufacturer’s units.

     By a July 20, 2006, FEMA, EPA and CDC/ATSDR conference call, the
     details of the testing plan were starting to be worked out, including how
     many units to test and from what sources. The notes for the conference
     call state that there was:

            “Discussion about whether the testing will be done with the units
            open or with just the air conditioner. Initial proposal was just for
            the air conditioner. Point was made that the formaldehyde will not
            dissipate without the windows being open.”

     The conference call notes also state that there was:

            “No resolution as to how testing will be accomplished and what we
            are trying to achieve. Discussion will continue regarding the
            variables and when and how long each variable will be tried
            during the testing process.”

     Through successive conference calls, the testing plan was worked out in
     more detail by late July. The basic plan was to define the formaldehyde
     levels on various models in a controlled test and then:

            “…perform several actions (open windows for a specific time, run
            fans, control humidity) and measure the effect on the formaldehyde
            level.”

     There were some problems in finding enough unused trailers from each
     manufacturer for each test, but by September 8, 2006, the main remaining
     problem was the provision of electrical power to each of the units that was
     to be tested. The power company wanted the payment account in place
     before the meters were installed and powered up. Also, the contractor
     selected to wire the trailers had not completed the work and had to have
     the completion date for the contract extended. However, these problems
     were addressed, and by September 19, 2006, EPA’s contractor had started
     testing the 96 selected trailers. Each trailer would be initially tested to


                FEMA Responses to Formaldehyde in Trailers

                                 Page 29
     establish a baseline formaldehyde level and then be retested after
     ventilation or air-conditioning steps were completed. By October 19,
     2006, EPA Region 6 reported that the EPA contractor had all of the
     agreed-upon data, but that problems in the analysis would delay delivery
     of the data from the contractor to EPA for approximately 1 week. EPA
     expected to deliver the database to FEMA around November 13, 2006.

Analysis of Formaldehyde Tests of Unoccupied Units

     CDC/ATSDR agreed to analyze the data package provided by EPA and its
     contractor and offer recommendations based on the data set. Since there
     was no existing interagency agreement between FEMA and the CDC
     under which this analysis could be performed, the responsible program
     office started working on all of the necessary documents, including a
     possible acquisition plan, on October 26, 2006. However, by November 4,
     2006, CDC/ATSDR officials concluded that they could “complete the task
     before an IAA [interagency agreement] could go through the approval
     process,” and agreed to interpret the test results without an established
     IAA. FEMA had designated an attorney to be responsible for the class
     action litigation alleging personal injuries related to formaldehyde in
     FEMA trailers. In that capacity he received the raw data during
     Thanksgiving week from EPA. Thereafter, the data was forwarded by
     FEMA officials to CDC/ATSDR and arrived December 1, 2006. FEMA
     officials initially stated that they expected a final analysis from
     CDC/ATSDR around December 11, 2006, but once CDC/ATSDR
     officials received the EPA packet they told FEMA that it would take
     longer than anticipated to complete the analysis.

     On February 1, 2007, the CDC/ATSDR Health Consultation
     “Formaldehyde Sampling at FEMA Temporary Housing Units” was sent
     to FEMA from the Acting Associate Director; Office of Terrorism,
     Preparedness and Emergency Response; National Center for
     Environmental Health/ATSDR. The analysis was 14 pages long, and as
     the cover letter noted:


     “In summary, the opening of windows and vents was effective in reducing formaldehyde
     concentrations below levels of health concern. Running the heating, ventilation and air
     conditioning systems did not provide adequate air exchanges to adequately reduce the
     formaldehyde concentrations. A combination of ventilation methods may be necessary to
     reduce formaldehyde concentrations below levels of health concern for sensitive
     individuals. FEMA has not requested ATSDR to evaluate longer term formaldehyde
     concentrations in trailers or health concerns related to potential exposures.”




                  FEMA Responses to Formaldehyde in Trailers 


                                    Page 30 

     The FEMA attorney who had received the CDC/ATSDR report sent it to a
     limited number of FEMA officials. In general FEMA officials interpreted
     the report to say, as one FEMA official concluded:

              “…the tests confirmed that we do not have a major issue with the
              formaldehyde but we are probably too casual in our
              communications with our applicants [residents] regarding proper
              ventilation.”

Problems With the Initial Analysis Report
     However, 6 weeks later, on March 17, 2007, the Associate Director;
     Office of Terrorism, Preparedness and Emergency Response; National
     Center for Environmental Health/ATSDR sent the FEMA attorney who
     had received the “Formaldehyde Sampling at FEMA Temporary Housing
     Units Health Consultation” a letter that expressed concerns with that
     report as issued. This letter, which was actually signed by the Associate
     Director, as opposed to the previous letter, which had been signed by an
     acting official, stated:


     “I am writing in follow-up to my previous correspondence last month on behalf of the
     CDC National Center for Environmental Health/Agency for Toxic Substances and
     Disease Registry.

     It has just come to my attention that the Health Consultation ‘Formaldehyde Sampling at
     FEMA Temporary Housing Units’ has been completed without a policy review by our
     senior technical staff. I am concerned that this health consultation is incomplete and
     perhaps misleading.

     Formaldehyde is classified as ‘reasonably anticipated to be a human carcinogen.’ As
     such, there is no recognized ‘safe level’ of exposure. Thus, any level of exposure to
     formaldehyde may pose a cancer risk, regardless of duration. Failure to communicate
     this issue is possibly misleading, and a threat to public health. I had discussed this issue
     several months ago in a review of the public statement derived from the Toxicological
     Profile that FEMA proposed. I specified at that time that this statement contained no
     mention of the cancer risk and that should be a public health concern.

     Thank you for your consideration of this issue and please feel free to contact me. Failure
     to speak to the long-term cancer risk regarding formaldehyde exposure irrespective of
     duration is of particular concern.”



     In October 2007, ATSDR would issue “An Update and Revision of
     ATSDR’s February 2007 Health Consultation: Formaldehyde Sampling of
     FEMA Temporary-Housing Trailers, Baton Rouge, Louisiana, September-
     October 2006.” This update was approximately three times the length of


                   FEMA Responses to Formaldehyde in Trailers

                                      Page 31
the original report and, in addition to reporting the data of the first
consultation; it contained a great amount of additional information,
including that which was referred to in the second letter.

The CDC/ATSDR letters had both been sent to one FEMA attorney
because the CDC/ATSDR officials still understood him to be their contact
point at FEMA as he had been for the test results. While the FEMA
attorney who received these letters shared the first letter with appropriate
FEMA officials, he did not share the second, or revised, letter. According
to the FEMA attorney, the cautionary second letter was consistent with
previous communications that results from CDC should not be “over
read.” Not being aware of the second letter, FEMA officials reassured
Congress and the public of the safety of FEMA trailers in statements that
do not reflect the content of the second letter and that might not have been
made if they had been aware of the content of the second letter. For
example, on March 23, 2007, the Acting Assistant Administrator, Disaster
Assistance Directorate, sent a letter to a congressional committee
responding to the committee’s questions. In that letter he stated:

       “At this point, FEMA is not aware of any significant health risks to
       the residents of these trailers.”

On May 10, 2007, the Associated Press quoted a FEMA spokesperson as
saying:

       “We have no need, and we see no need, to question the reliability
       and safety of the trailers.…As long as residents can properly
       ventilate their units, there is no significant health hazard, little if
       any.”

On July 3, 2007, the “FEMA Forward” newsletter was quoted as stating
that it is a myth that FEMA must remove formaldehyde from travel trailers
because:

       “The agency’s study of air samples collected from travel trailers in
       the Gulf area shows that formaldehyde emission levels in the units
       can be significantly reduced through adequate ventilation.”

The FEMA attorney, however, said he was not aware that FEMA officials
had made such public statements.




           FEMA Responses to Formaldehyde in Trailers

                            Page 32
Role of the FEMA Attorney in the Formaldehyde Testing
Program
     The FEMA attorney involved in the formaldehyde issue since early on in
     its development became a point person for the issue. On June 14, 2006, the
     FEMA Associate General Counsel for Litigation sent an email to FEMA
     officials that read, in part:

            “A class action suit seeking injunctive and monetary relief from
            FEMA and trailer manufacturers was filed last week.
            Administrative tort claims also were filed.”

     He then named the attorney, referred to in this report as the “FEMA
     attorney”, who:

            “…is handling the matter for OGC [now OCC]. The program
            should not be dealing with applicants on the formaldehyde issue
            without first coordinating with [the FEMA attorney] and DOJ
            [Department of Justice].”

     Later that day, a FEMA official wrote an email related to formaldehyde in
     trailers that included:

            “This came up at the Senate. Has the agency conducted our own
            testing of the units? If not, we need to do so ASAP and put this
            issue to rest or remove people from harm. I don’t want to rely on
            non-fed testing. We also need an information campaign on what
            we are doing about the potential issue and our eventual findings to
            include temporary and permanent remedies.”

     One of the recipients of his email, a FEMA attorney in the Gulf Coast
     area, forwarded the message to the FEMA attorney with the message:

            “Please see the email from [the FEMA official] below – you
            weren’t copied so I didn’t know if you had seen it.”

     On June 15, 2006, the FEMA attorney sent an email to the drafter of the
     email concerning testing, the Gulf Coast FEMA attorney who had
     forwarded him the testing email, and the Associate General Counsel for
     Litigation, which read:

            “Do not initiate any testing until we give the OK. While I agree
            that we should conduct testing, we should not do so until we are
            fully prepared to respond to the results. Once you get results and


                FEMA Responses to Formaldehyde in Trailers

                                 Page 33
       should they indicate some problem, the clock is running on our
       duty to respond to them.”

On June 16, 2006, FEMA OCC recommended that:




On June 27, 2006, as part of the discussions addressing how to perform
testing that was to be conducted by the EPA, a FEMA official asked the
FEMA Gulf Coast Recovery Office whether they were taking the lead in
resolving the formaldehyde issue. A Gulf Coast recovery official
responded:

       “Yes, Gulf Coast Recovery will take the lead, in coordination with
       the TROs [Transitional Recovery Office] and HQ Recovery.”

Within 15 minutes, the Associate General Counsel for Litigation sent an
email to the two officials who had exchanged the emails and to more than
30 other FEMA officials stating that:

       “Please be aware that there is active pending litigation on the
       formaldehyde issue. FEMA activities related to testing, etc., must
       be coordinated with OGC [now OCC] and DOJ. [The FEMA
       attorney] is the OGC [now OCC] attorney assigned to the case.”

The FEMA attorney was closely involved in the testing program once
OCC put out the informal order that he was to be part of all
communications. For example, the FEMA attorney was involved in
discussions regarding how often the EPA contractor was to test each of the
unoccupied units and how the units were to be coded so the testers would
not know the manufacturer of each. But the FEMA attorney told us that
he had no authority to direct how the EPA conducted its tests or decide
which trailers to test, and did not direct EPA’s testing. Once the tests were
completed, EPA was to give all of the raw data to the FEMA attorney. He
would be the FEMA official holding the data and would be the individual
responsible for sending the data to CDC/ATSDR for analysis. The FEMA
attorney received the results from EPA officials by November 21, 2006,
and CDC/ATSDR received the results from him by December 1, 2006.
There was a 1-week delay in the forwarding of the data because the
FEMA attorney did not know to whom in CDC/ATSDR to send the results
for analysis. When CDC/ATSDR completed the analysis, their product


           FEMA Responses to Formaldehyde in Trailers

                            Page 34
     was to be sent to the FEMA attorney, who was to serve as their contact at
     FEMA. The CDC/ATSDR letter that would accompany that product to
     the FEMA attorney would eventually note:

            “Per your request, the data and the subsequent analysis of the data
            has not been shared with anyone other than [two CDC/ATSDR
            staff].”

     The control held by the FEMA attorney over the testing data information
     is shown in a December 1, 2006, report by a FEMA official of her
     conference call with the attorney. She reported that he had said that he:

            “Reviewed the raw data ‘in a very non-scientific manner.’ It
            appeared overall, there were low levels of airborne contaminants
            of formaldehyde found in the samples collected and analyzed by
            the EPA. Ventilation is the primary method in which to reduce
            formaldehyde in the trailers.”… “The data was duplicated and
            forwarded to [the contact person] of the CDC.” He had then
            reiterated that “if the media or another government agency ask
            questions pertaining to formaldehyde” they were to be referred to
            FEMA OCC.

     The FEMA attorney may not have been in charge of the testing program,
     but he served as point of contact for study information, and that may have
     affected FEMA in its public announcements.

Effects of the FEMA Attorney’s Role in the Program
     The extent of the effects of having the FEMA attorney in a position of
     control in the formaldehyde testing of unoccupied residences is not very
     clear. There was a 1-week delay in getting the test data to CDC.
     However, CDC/ATSDR officials told us that their subsequent data
     analysis was not interfered with. The fact that the attorney controlled the
     receipt of data and analysis from CDC had an adverse effect because the
     second letter which should have cautioned FEMA officials about the
     reliance that could be put on the first letter and report, was not distributed
     or discussed by the attorney. This may have caused or allowed FEMA
     officials to make assurances about the safety of the FEMA trailers that
     were later shown to be incorrect. FEMA’s appearance and reputation
     were also damaged with the public disclosure in the national press of the
     FEMA attorney’s directive:




                 FEMA Responses to Formaldehyde in Trailers

                                  Page 35
                           “Do not initiate any testing until we give the OK.2…Once you get
                           results and should they indicate some problem, the clock is
                           running on our duty to respond to them.”

                  These comments were eventually released to Congress in response to a
                  congressional request and were carried in newspapers, with the result that
                  FEMA was portrayed as more concerned with legal liabilities than the
                  health of its clients.

         Effects of Testing Unoccupied Units Rather Than Occupied Units
                  The decision by FEMA officials to test unoccupied trailers in order to
                  analyze two mitigation strategies rather than testing occupied trailers to
                  determine the cause, nature, and extent of the formaldehyde health threat
                  had significant negative repercussions. Tests on unoccupied units
                  concluded that maximum ventilation of trailers was effective and was
                  more effective than merely cooling units with air-conditioning and limited
                  ventilation—in effect, the study proved in the tested trailers what was
                  already generally known. The Consumer Product Safety Commission had
                  been advising trailer occupants since at least 1997 that the first way to
                  reduce formaldehyde was to, “Bring large amounts of fresh air into the
                  home. Increase ventilation by opening doors and windows and installing
                  an exhaust fan(s).” Other health and safety organizations, including CDC
                  offices, had provided similar advice. Even FEMA, in brochures that were
                  distributed in July and August 2006, well before the testing was
                  conducted, had advised residents under the heading “What can I do to
                  reduce my exposure to formaldehyde in my travel trailer?” to “Increase
                  ventilation. You can reduce your exposure to formaldehyde by bringing
                  more outdoor air into your home. Open windows and doors whenever
                  possible.” Although the benefits of the testing of unoccupied units were
                  therefore limited, the real cost, apart from the funds that were spent, was
                  that occupied units were not tested to determine the potential
                  formaldehyde threat and would not be tested for more than a year after the
                  testing of unoccupied units.

         Causes of the Manner in Which the Testing Program Was
         Managed
                  Some FEMA officials told us that the program offices were really in
                  control of the program, but the FEMA attorney played a key role. From
                  the beginning of the testing effort, the program office and OCC both

2
 The major press article left out the intervening text of “While I agree that we should conduct testing, we
should not do so until we are fully prepared to respond to the results.”


                                FEMA Responses to Formaldehyde in Trailers

                                                   Page 36
supported testing, but for different reasons. In late August 2006, a news
network submitted a Freedom of Information Act (FOIA) request for the
formaldehyde testing results.

FEMA attorneys took the position that:

       “The testing was undertaken because FEMA was sued.... The
       testing is covered under the following exception to FOIA #5 and
       has been prepared in anticipation of litigation and is covered
       under deliberative process privilege, the attorney work product
       privilege and the attorney client privilege.”

In other words, the testing responded to a legal issue and the results were
not publicly releasable.

The Acting Assistant Administrator, Disaster Assistance Directorate,
responded:

       “For the record, we initiated this testing before we were sued.”
       [And wrote to his staff] “Is that right? I was not aware of any
       litigation when you first proposed engaging the EPA to test.” The
       Recovery staff responded: “I don’t know if we were aware of the
       litigation when we began working with EPA (it certainly wasn’t the
       driving factor). I will need to review my email archives for actual
       dates.”

Since the FEMA attorney received the formaldehyde analysis from
CDC/ATSDR, he was also the only person who received the second CDC
letter that called into question the reliance that should be placed on the
first letter and report. When he did not release the second letter to other
FEMA officials, they proceeded to make optimistic statements about the
safety of the FEMA trailers that they might not have made if they had all
the relevant information.

We have been given several reasons for the decision to test unoccupied
trailers rather than occupied trailers including that other agencies were
resistant to conduct testing, especially of occupied units. FEMA officials
told us that unoccupied units were tested first because that was necessary
to establish a protocol for testing occupied units. However, the standard
protocol for testing for formaldehyde is an established NIOSH protocol
that existed long before the testing of the FEMA trailers. CDC officials
told us that this NIOSH protocol was used in the tests of occupied units
that were to be conducted in December 2007, and that no additions to that
protocol from the FEMA/EPA testing of unoccupied units were needed or


           FEMA Responses to Formaldehyde in Trailers

                            Page 37
used in that testing. Some officials who were engaged in the test planning
for unoccupied units and in the analysis of those results told us that they
believed that the testing of unoccupied units was needed to establish a
baseline for the subsequent testing of occupied units. However, such a
baseline is not referred to in the test results of occupied units and, in any
case, this would not have prevented testing of occupied units from being
conducted simultaneously with the testing of unoccupied units rather than
more than a year later.

At the time the testing was announced to the public, the FEMA News
Desk stated that:

        “The agency has specifically asked for and received from the
        Environmental Protection Agency (EPA) an air monitoring and
        sampling plan that is intended to validate scientifically, methods
        that can be used to reduce the presence of formaldehyde in travel
        trailers.”

The FEMA Public Affairs Office sent out talking points stating:

        “The purpose of the study is to provide scientific support for
        methods that can be used to reduce the presence of formaldehyde
        in trailers. Specifically, the results will be used to identify
        activities we can take and that we can instruct the occupants to
        take to lower the levels of formaldehyde.”

FEMA officials used the following similar language to describe the
program to the DHS Secretary and to a congressional committee
chairman:

        “The test plan will identify a variety of activities to reduce levels,
        such as opening the windows for 15 minutes every morning, with
        testing to take place after each of the different activities.”

These announcements all leave the impression that some groundbreaking
research will test a variety of different activities and options for effectively
reducing formaldehyde in trailers – research that might conceivably be
worth postponing the analysis of formaldehyde problems in occupied
units. However, after discussions between FEMA and EPA officials, the
actual EPA test plan for unoccupied trailers accepted by August 22, 2006,
called for only testing two variables: the airborne formaldehyde
concentration when ventilation is provided by open windows, static vents
and exhaust fans; and the airborne formaldehyde concentrations when
ventilation is provided by open static vents and the air temperature and


            FEMA Responses to Formaldehyde in Trailers

                             Page 38
     humidity are controlled through the use of the home’s air-conditioning
     system. While these were certainly valid options to test, they were already
     recognized as being among the priority steps to take to reduce
     formaldehyde levels in trailers and were hardly the groundbreaking
     research on a variety of options that were described by FEMA officials.

     Our review of most of the FEMA emails concerning formaldehyde that
     were exchanged between late 2005 and early 2008 leads to another
     possible reason for testing unoccupied units rather than testing the trailers
     that were actually occupied and whose residents’ health might be
     threatened. Once testing for formaldehyde levels in occupied units was
     completed, FEMA would need to be able to tell the occupants what the
     test results actually meant and how much of a health risk the occupants
     were taking by remaining in the trailers. The key problem that FEMA
     officials faced was that there were no standards for residential
     formaldehyde safety levels against which to compare the results. After
     testing, FEMA would only be able to tell the occupants: “Here are the
     results and they might mean you are at risk.” When the results of testing
     occupied units were finally released in 2008, the conclusions were not too
     different from this statement.

     FEMA officials at various levels expressed, on different occasions, this
     fear of what to do with the information and what to tell the occupants.
     FEMA officials sought usable safety standards for trailer formaldehyde
     levels from several organizations on several occasions, including from a
     CDC-convened experts panel. However, FEMA officials did not succeed
     in getting any organization to view producing such guidance as its role or
     responsibility, or in getting the standards that it needed. These were
     needed not only to demonstrate the real meaning of any tests of occupied
     units that might be conducted, but also to design the standards for future
     FEMA housing units in order to provide safe residences for occupants.

Conclusions
     The testing of unoccupied trailers was somewhat delayed by several
     factors. The role that the FEMA attorney played harmed the public’s
     perception of FEMA. The attorney’s position that: “Once you get results
     and should they indicate some problem, the clock is running on our duty to
     respond to them” may have created a negative public image of FEMA’s
     efforts to address the formaldehyde problem. Moreover, the attorney’s
     sole possession of information may have allowed FEMA officials to give
     incorrect assurances concerning formaldehyde safety in FEMA trailers.




                FEMA Responses to Formaldehyde in Trailers

                                 Page 39
Whenever there are serious allegations of health and safety problems
affecting FEMA clients, the initial steps should include determining
whether the problem is real and the cause, extent, and nature of the threat.
In this case, these steps would have required testing the formaldehyde
levels in the occupied units before, or at least concurrent with, the testing
of the unoccupied units. The reasons given for testing the unoccupied
units first are not sufficiently convincing to overcome the general principle
that determining the extent and nature of health and safety threats should
always be a priority. However, the absence of any standards for what is a
safe level of formaldehyde acceptable in a FEMA travel trailer, although
not a sufficient reason for delaying the testing of occupied trailers, is a
major health and safety problem and obstacle. HUD standards address
what materials can be used in mobile homes but do not address what level
of formaldehyde is acceptable in such a unit–and these standards do not
work for travel trailers. In addition, the apparent 1984 HUD
formaldehyde goal of 400 ppb does not appear to satisfy the safety
demands that are being made of FEMA.

There will always be some formaldehyde in trailers, but FEMA officials
need to know what constitutes acceptable and safe levels for the trailers
provided to occupants. FEMA is not the agency responsible for
determining such residential formaldehyde standards and its staff does not
have the capability to do so. Nor were FEMA officials able to determine
just what organization can and will fulfill such a need. However, these
formaldehyde standards are definitely needed to ensure the safety of future
occupants of FEMA trailers. Such standards would also help to provide
for the health and safety of occupants of non-FEMA travel trailers, park
models, and mobile homes, and would be of great use to consumers when
they are purchasing such units.

Recommendation
We recommend that FEMA:

       Recommendation #7: Establish clear policy over the decision
       making processes related to matters of health and safety. This
       policy should mandate that responsible program and management
       officials make decisions after obtaining and considering all
       appropriate professional advice, including opinions and input from
       medical, scientific, and legal experts. Moreover, FEMA should
       ensure that responsible program officials and managers have
       access to critical information and advice related to the health and
       safety effects of all FEMA programs.



           FEMA Responses to Formaldehyde in Trailers

                            Page 40
Formaldehyde Testing Effort for Occupied Trailers
     A testing program to examine the seriousness and extent of the health threat of the
     formaldehyde problem in occupied FEMA trailers in the Gulf Coast region was
     initiated in May 2007, partly due to heightened congressional interest in these
     matters and after a senior DHS official directed health specialists from DHS’
     Office of Health Affairs (OHA) to become involved in the problem. OHA
     quickly started to work with CDC officials to develop the plans for an appropriate
     comprehensive testing program. However, there were lengthy FEMA delays in
     producing the documents necessary to conduct the testing. The testing program
     was initially delayed until October 2007. The testing effort was further delayed
     by 2 months when a senior FEMA official decided that FEMA was not prepared
     for the possible results and stopped the contract. By the time testing was
     conducted, it was early winter, when formaldehyde levels and, therefore, test
     results were likely to be lower because of the weather. Nevertheless, the test
     results were serious enough to cause the FEMA Administrator and the CDC
     Director to hold a press conference to announce the results and efforts to move the
     remaining occupants out of FEMA trailers.

     Initiation of the Testing Program for Occupied Trailers
            The process of testing occupied trailers did not start until outside events
            and outside officials put pressure on FEMA officials. On May 1, 2007, a
            major national news program featured an episode titled “Toxic Trailers.”
            The feature addressed formaldehyde problems in FEMA trailers, and
            stated “epidemiologic studies have established quite clearly that there’s an
            increased risk of cancer, especially cancer of the nasal sinuses.” The
            news feature also discussed a Mississippi pediatrician’s conclusion that
            the persistent colds, pneumonias, and sinus and ear infections being
            suffered by some of his young patients might be related to the fact that
            every one of them was living in a FEMA trailer.

            On May 17, 2007, a senior DHS official emailed the Chief Medical
            Officer (CMO), the Administrator, and the Deputy Administrator of
            FEMA:

                    “Can you work with FEMA to do a quick assessment of the facts
                    associated with this story and let me know what you think? Is this
                    a real medical concern? If so, how serious? Remedy?”




                       FEMA Responses to Formaldehyde in Trailers

                                        Page 41
Eight minutes later, the Acting Administrator for the Disaster Assistance
Directorate also emailed the CMO:

       “Reference yesterday’s CBS report that a Bayou Le Batre
       physician has identified what he believes is an ailment trend
       among travel trailer residents, which he attributes to
       formaldehyde. While the study we commissioned on the
       formaldehyde problem by CDC and EPA would seem to dispute
       that, I am nevertheless interested in arranging to have a formal
       federal medical assessment of this individual’s evidence and
       claims, to determine their validity and if further health and safety
       actions on the part of FEMA may be warranted. Before reaching
       out to the obvious candidate agency, HHS, request your
       recommendation on an approach.”

Later that day, the FEMA Deputy Administrator emailed the head of
OHA:

       “We’ve previously had CDC conduct a study. Welcome fresh look
       from [the head of OHA] and his team.”

That same day, the CMO emailed a CDC official:

       “ATSDR did a nice environmental exposure study in response to a
       FEMA request…which showed conclusively that ventilating a new
       trailer could obviate the problems with new, manufacturing-
       related formaldehyde concentrations. We may need some further
       suggestions from a clinical tox perspective, and wonder how we
       might go about enlisting the help of you and your associates with
       expertise in the matter, hopefully to put it to rest, but more
       importantly to make sure we are not missing anything.”

FEMA officials were apparently still unaware of the second CDC letter,
which limited the reliance that should be placed on the first ATSDR study.

By May 18, 2007, the CMO was able to email FEMA officials that he had
been in contact with CDC and had appointed an OHA team to work with
CDC and others “to get to the ground truth on this.”




           FEMA Responses to Formaldehyde in Trailers

                            Page 42
Meanwhile, FEMA officials in the Gulf Coast were reporting that, after
being down during the winter, complaints about formaldehyde were
picking up, with 28 complaints in the past couple of days:

       “Further, occupants are now starting to request that we test their
       unit for formaldehyde levels.”

FEMA Gulf Coast officials reported their plan was to explain to occupants
that their workforce was not qualified to do formaldehyde testing and
instead continue to recommend ventilation and swapping units when that
did not work and added:

       “But, we need this position to be confirmed with HQ and the Chief
       Medical Office.”

The Acting Assistant Administrator, Disaster Assistance Directorate,
replied:

       “Don’t have a strong opinion on this. Will support whatever
       response/interdiction strategy OGCR [Office of Gulf Coast
       Recovery] and OHA jointly determine.”

By May 25, 2007, the OHA team and CDC had already reached initial
agreement on a series of actions that were needed to address the
formaldehyde problem. These consisted of a statistically valid sampling
of occupied trailers looking at formaldehyde and other volatile organic
compounds (VOCs), a medical evaluation through interviews with trailer
occupants, a toxicological review recommending target levels based on
past and ongoing research, and an engineering review looking for long
term engineering solutions for formaldehyde in trailers. Thus, the critical
questions concerning the health threat in occupied trailers were now being
asked after more than a year.

By May 30, 2007, after discussions with CDC and FEMA officials, the
OHA team had further defined the areas of inquiry that CDC would be
requested to perform. These areas included how the government should
determine whether excessive levels of formaldehyde or other substances
were contributing to noted adverse health effects on residents of FEMA-
provided travel trailers; the reasonable target levels for mitigating both
long-term and short-term health effects; whether the CDC recommended
that occupants be relocated from trailers that cannot be mitigated to the
above recommended level; the practical trailer engineering mechanisms to
reach the target levels; and the continuing mitigation requirements
recommended by the CDC, such as testing and monitoring formaldehyde


           FEMA Responses to Formaldehyde in Trailers

                            Page 43
     levels in occupied trailers. The following day the OHA team and FEMA
     officials discussed the plan in detail with CDC officials.

     By June 6, 2007, a FEMA executive summary of the four tasks to be
     requested of CDC was complete. These were:

      1.   “Determine the levels of certain air quality measures (including
           formaldehyde, molds and airborne bacteria) for a representative sample of
           these trailers, under actual use conditions, in order to assist FEMA in
           making short-term risk management decisions concerning continued
           habitation of these trailers. The goal of this requirement is to determine
           actual conditions in the field.”
      2.   “Develop a protective indoor air level for formaldehyde for various time­
           of-residence periods, to help inform FEMA in risk management decisions
           concerning immediate and future habitation of travel trailers.”
      3.   “Identify any practical mechanisms or engineering solutions for these
           trailers to reach target levels that would ensure safety/health of residents.”
      4.   “Determine whether there is an association between poor indoor air
           quality in FEMA trailers and adverse health effects in children who live
           in these trailers.”

FEMA Delays in Obtaining Testing Assistance From CDC
     Problems with FEMA administrative procedures significantly delayed the
     agreements needed for CDC to proceed with the project, which, in turn,
     delayed the start of testing by about 6 weeks.

     As early as June 7, 2007, one of the FEMA officials involved in the testing
     program had emailed the Acting Assistant Administrator, Disaster
     Assistance Directorate, asking whether, now that the definition of the tasks
     to be performed by CDC was complete, someone could start drafting the
     “appropriate FEMA task document for CDC.” CDC officials told us that
     they had notified FEMA early on that CDC would not be able to start any
     substantive work without the proper authorizations from FEMA,
     especially a letter of request to the CDC Director from the FEMA
     Administrator, and funding documents. The Acting Assistant
     Administrator, Disaster Assistance Directorate, immediately emailed the
     appropriate persons, including a note that:

             “We need to quickly formalize a funding mechanism with CDC, to
             support their engagement in the formaldehyde issue.”

     By June 15, 2007, a proposed letter from the FEMA Administrator to the
     CDC Director requesting engagement of CDC in addressing the four
     formaldehyde issues had been drafted, and the Administrator and his
     deputy had been briefed on the formaldehyde issues and the proposal for


                  FEMA Responses to Formaldehyde in Trailers

                                      Page 44
CDC involvement. By June 19th, a few changes had been made to the
draft request letter for CDC and by June 25th, FEMA staff reported that
they hoped the letter would go out the next week. Meanwhile funding
documents for the requested CDC effort were also being completed, since
“the real task will not begin until the IAA [interagency agreement] is in
place.”

On July 2, 2007, a copy of the draft letter was sent to CDC with the note
that there might still be changes in the letter, but probably not in scope.
CDC, of course, needed more than just a “likely-to-get-out” draft request
before they could proceed. By July 3rd, the FEMA staff who were in
contact with CDC were asking to know when the letter might be signed
since the CDC staff who were writing their own Director’s response letter
“want to be ready to respond quickly.”

By July 10, 2007, the head of the OHA team was emailing the Acting
Assistant Administrator, Disaster Assistance Directorate, warning that
since a congressional committee was scheduling a formaldehyde hearing
for the next week:

       “I think this is all the more reason that we need to do whatever can
       be done to get CDC their official start letter from FEMA.”

One of the FEMA contacts for the letter then wrote: “Letter is in final
concurrence. Pushing to have final signed ASAP.” But that same day
other FEMA staff reported: “The letter to CDC is mired in bureaucracy.”

On July 11, 2007, the Deputy Assistant Secretary, DHS OHA, emailed the
FEMA Deputy Administrator to mention that he had been talking to the
head of the OHA formaldehyde team:

        “…after we heard about the invitation to testimony that you have
       for next week. [The head of the team] mentioned that the letter
       from FEMA going to the CDC requesting CDC’s help with the
       environmental study, etc., has not been sent yet as the cost analysis
       and clearance process had not been completed. …Evidently the
       CDC has also been asked by the committee what it is doing to
       work with FEMA on the issue…”

The FEMA Deputy Administrator then emailed the Acting Assistant
Administrator, Disaster Assistance Directorate:

       “What’s the story on this letter to CDC? Have we not sent it? Is
       there an issue?”


           FEMA Responses to Formaldehyde in Trailers

                            Page 45
     To which the Acting Assistant Administrator responded:

            “Our staff continue to work with the CFO [Chief Financial Officer]
            to establish a funding vehicle for this effort. Will have a more
            detailed update later.”

     On July 20, 2007, the CDC received the hard-copy letter from the FEMA
     Administrator to the CDC Director. It had taken approximately 45 days
     from the time that FEMA finalized the tasks to be requested of CDC until
     the CDC received the letter requesting that the tasks be performed.

Testing Program for Occupied Trailers Commences
     Once the necessary FEMA documentation was completed, the
     formaldehyde-testing program moved forward. By the end of July, CDC
     officials had completed a site visit to the Gulf Coast area to “gather
     information in order to draft a protocol and sampling plan.”

     However, by early August 2007, it became clear that CDC would need to
     use contractors for the testing that was planned, since the CDC NIOSH
     element would not be able to perform the required testing activity. This
     may have led to additional delays. FEMA reported that CDC would have
     a challenge getting these tests contracted because of the “timing in
     relationship to end of fiscal year.” On August 16, 2007, the FEMA
     interagency agreement with CDC was completed. By September 10,
     2007, some FEMA officials were already requesting that the contracting
     officer issue a delinquency notice to CDC because testing had not started
     as scheduled. As other FEMA officials had noted: “we are losing some of
     the best time of the year to test as the heat and humidity are high.” By
     October 12, 2007, CDC had announced the contract for testing of FEMA
     trailers and had selected a contractor to perform the tests. Testing was
     scheduled to begin in the Gulf Coast region in late October, and the testing
     contractor proceeded to get staff and equipment on site to commence the
     testing. And then the testing program came to a complete stop.

FEMA Officials Stop the Testing Program for Occupied Trailers

     Even after the CDC contractor was in place, FEMA officials’ concerns
     about what their strategy should be once the testing results became public
     caused FEMA to halt the testing effort before it could get underway. This
     resulted in yet another delay, nearly 2 months in this case, in the testing of
     occupied units.




                FEMA Responses to Formaldehyde in Trailers

                                 Page 46
For many months, FEMA officials had discussed what test results would
mean and what could and should be said about the results of testing in
occupied units. As far back as August 2006, a FEMA official had written
Texas FEMA staff, who had wanted to test their occupied trailers for
formaldehyde, that:

       “…my concern [is] that even with the test, what are you going to
       use to determine if it is OK or not? There are no standards for
       residential safety and FEMA is not an agency to set one.”

On September 24, 2007, the FEMA Deputy Administrator emailed the
OHA and FEMA officials involved in the testing effort:

       “…are the NIOSH and CDC efforts different or the same? Are
       they going to work just with unoccupied trailers or with occupied?
       Travel trailers only or also with mobile homes? Is the RVIA
       [Recreation Vehicle Industry Association] resolution applicable to
       TTs? Is that the point? On the CDC assessment, is its primary
       objective how to help us with inventory or to gain information that
       will help us ensure the safety of disaster victims? I would like a
       timeline of what to expect from who and when. We meet with the
       Secretary tomorrow. Would be worthwhile to provide an update.
       Will need this info to ensure that I understand where we are.”

The next day the Deputy Administrator, having received a response
including a timeline that predicted the testing would be conducted from
October 7 to 20, 2007, emailed the same officials:

       “Looks like sampling completed on Oct 20th, but analysis will not
       be provided to FEMA until mid-December. Is that correct? What
       is the communications plan? It would seem that our largest
       communications challenge will come once we have the sampling
       analysis. Yet, presuming that we want to communicate the results
       of the sampling, how can we have the comms plan two weeks
       ahead of the sampling assessment? You are working in MS with
       CDC. Presume that sampling will take place in LA as well. I am
       still looking for something that will define level of ‘safe’ so that
       results of sampling have useful value. [OHA team] indicates the
       expert panel will not provide that clarity, but may provide ‘relative
       risk’ information, for whatever that means. I am concerned that
       we have not given enough discussion of where we will be at the
       end of sampling. I am concerned that we will have sampling data,
       but won’t know how to apply it. We likely will not have ‘safe’ but
       will have ‘relative risk’. What is that? How do we think,


           FEMA Responses to Formaldehyde in Trailers

                            Page 47
       communicate and develop policy? I would like to have this
       discussion now as opposed to end of October. I would like to meet
       with you and [OHA] on this issue when able. Once again, I
       appreciate the issue of deploy-dispose, but am more focused on
       safety aspects and ability to communicate those issues to current
       and previous occupants of these housing units.”

On October 21, 2007, having viewed the October 19th Weekly Update on
formaldehyde testing, the Deputy Administrator wrote:

       “Thanks for the update. Have some concern for proper launch of
       test of occupied TTs. Will want assurance that we are ready, and
       opportunity to advise on Hill and at DHS. Still concerned we will
       have validated testing results and no standard to which apply.
       Presume 1.0 ppm will become de facto standard. Want to discuss
       before green light is given to proceed.”

The Acting Assistant Administrator, Disaster Assistance Directorate
responded:

       “1.0 ppm too high, at least as a standard for future purchases. We
       are using .015 as our current de facto standard for new purchases.
       This is .001 ppm below the NIOSH cellular-effect level. If we
       select a current habitation safety standard above .015, we will
       need to defensibly reconcile the two.”

The next day, a FEMA official coordinating formaldehyde efforts wrote:

       “The numbers that are ‘out there’ are 0.1ppm, which is the NASA
       [National Aeronautics and Space Administration] standard and is
       further supported by the American Society of Heating,
       Refrigerating and Air-Conditioning Engineers (ASHRAE). The
       California Air Resources Board and Dept. of Health have set
       0.1ppm as their ‘action guideline,’ meaning above that requires
       active mitigation. In the absence of a medical/scientific agency
       coming forward with a contrary number, as you suggest 0.1 ppm
       will likely become the de facto standard. I’ve asked DHS [the
       OHA team] to come over this week for a discussion on risk, the
       standard and what we might expect from the Expert Panel. I
       propose we have this discussion before considering approval of the
       CDC Sampling Plan. And we have not yet seen a draft of that
       sampling plan.”




           FEMA Responses to Formaldehyde in Trailers

                            Page 48
The Deputy Administrator responded:

       “All good info. I do want a discussion here before a sampling plan
       is approved. Want to ensure that we have our media and Hill
       message ready, are engaged with our State partners, and have
       DHS up to speed. We need to look forward to anticipate the
       readings we are going to get, compared to the 0.1 ppm standard,
       and how we are going to respond when and if that level is
       exceeded. This is a big deal that merits a brief to the Chief
       [FEMA Administrator] to gain his approval. I’ve included [a
       public affairs officer] on this email to ensure that this ratchets up
       on the agenda in External Affairs.”

One week later, on October 29, 2007, the CDC liaison with FEMA
emailed several of his FEMA official contacts:

       “I received a telephone call on Friday from [the OHA team
       leaders] in which they told me that in briefing the [FEMA Deputy
       Administrator] that a decision had been made that FEMA wanted
       to put our sampling on hold until they could determine a ‘level of
       exposure number for formaldehyde that all or most reasonable
       people would consider safe.’ This being necessary in case we
       found numbers in our sampling that it was determined would
       preclude further occupancy of the unit. I need something official
       from you as project officer that relays this request to me so that I
       can contact our contractor and put them on hold again. You know
       that we made an accommodation last week and delayed the project
       for a week at your request so that FEMA could do messaging
       around the sampling issue; this delay will no doubt cause our
       contractor some hardship and I would expect that they will charge
       the contract due to expenses that they have and will incur as a
       result of this delay. Please let me know ASAP what your wishes
       are.”

Later that day, the FEMA formaldehyde project coordinator emailed the
Deputy Administrator:

       “This is a courtesy notification that we have initiated the action to
       stop CDC work on the assessment of occupied trailers until we
       have an approved FEMA engagement plan. We are aware that
       action may result in additional costs beyond the planned contract
       and we accept that. Tuesday we will back up the initial verbal
       notification with written notification via the KO/COTR
       [Contracting Officer/Contracting Officer’s Technical


          FEMA Responses to Formaldehyde in Trailers

                           Page 49
            Representative] mechanisms. In the meantime we have worked
            with our EA [External Affairs] staff and the CDC EA staff to draft
            a ‘Response to Query Only’ statement on the reason for the delay.”

     The Deputy Administrator replied:

            “I am fine with the stop-work notification. As we discussed last
            week, this is a big step in our process that I do not think we are
            ready in all respects to take.”

     The FEMA Public Affairs Office would later issue the following
     statement:

            “Testing was to have begun the first week of November, but
            previously scheduled appointments have been postponed until
            health and environmental experts finalize the testing process and
            action levels for responding to the results of the testing are
            determined.”

     CDC officials told us that the contract they had with the contractor on site
     in the Gulf Coast to conduct testing did not allow for the type of stop-work
     order that FEMA officials wanted. The contract had to be canceled using
     the standard clause that allows contracts to be canceled “at the
     convenience of the Government.” In such cases, the government has to
     compensate the contractor for the expenses it has incurred to date in the
     contract. In this case, once the contractor had pulled back its equipment
     and staff from the testing area, the total cost to the government for
     canceling the contract came to approximately $150,000.

Testing Effort for Occupied Trailers Gets Completed
     When FEMA officials were ready for the testing process to continue, CDC
     re-advertised for contractors to conduct the testing in the Gulf Coast area.
     On November 16, 2007, the CDC contact emailed FEMA officials:

            “Please be assured that we are proceeding with all haste to put in
            place a new contract for the formaldehyde sampling of the 500
            units in MS and LA, and at the present time we have adequate
            funds to proceed to contract.”




                FEMA Responses to Formaldehyde in Trailers

                                 Page 50
On December 11, 2007, he notified FEMA that:

       “The contracting officer has just notified me that an award of the
       contract for the testing in occupied FEMA temporary housing units
       has just been made to…a large environmental testing firm.”

CDC officials told us that, because they were fortunate in getting more
competition when they competed this second effort at a testing contract,
the second bid award was significantly lower than the first award had
been; the savings more than covered the approximately $150,000 in close­
out charges that had to be paid for canceling the first contract.

Formaldehyde testing of 519 randomly selected occupied trailers in
Mississippi and Louisiana started on December 21, 2007, and was
completed on January 23, 2008. From that date, the contractor had 10
days to wrap up its work and get the database to CDC. CDC officials had
planned to complete their analysis in 10 to 14 days.

On February 14, 2008, 22 months after early reports of formaldehyde
problems from occupants of FEMA trailers, the FEMA Administrator and
the CDC Director held the press conference to announce preliminary
results of FEMA-sponsored CDC testing of FEMA trailers and mobile
homes in Louisiana and Mississippi. At that conference, the CDC
Director stated that CDC had found approximately one-third of the
housing units had formaldehyde levels that could cause irritation and
symptoms such as runny nose, cough, or even breathing problems for
residents who were vulnerable to formaldehyde such as young children,
older people, or individuals who already have airway diseases.
Furthermore, around 5% of the FEMA units had formaldehyde levels that
were so high that even residents without vulnerabilities could experience
such formaldehyde-caused symptoms. The FEMA Administrator then
announced that:

       “As a result of these preliminary findings FEMA is going to
       continue our aggressive action to provide for the safety and well­
       being of the residents of these travel trailers by finding alternative
       housing.”

In addition, he stated in response to a question about future emergency
housing plans:

       “We will not ever use trailers again. We may use mobile
       homes…But we will not use trailers again.”



           FEMA Responses to Formaldehyde in Trailers

                            Page 51
           The CDC study was released as interim findings on February 29, 2008,
           and in its final version on July 2, 2008. The following table, which is
           slightly abridged from page 24 of the CDC final report, presents an
           overview of the results of the formaldehyde tests.

                    CDC Formaldehyde Test of Occupied Trailers

                                                         Formal­                   Weighted
                              Number       Number
                                                         dehyde        Range      Percentage
               Brand             in          in
                                                           GM1         (ppb)
                              Stratum      Sample                               >= 100   >= 300
                                                          (ppb)2                 ppb      ppb
             Gulf Stream       14,624         123           104        3-590    56%       9%
             Forest River       3,220          36           82         17-510   42%       6%
              Fleetwood         2,371          47           39         3-140     6%       0%
              Fleetwood
 Travel                         1,699
                 CA                            39           43         7-300    13%       3%
Trailers
               Pilgrim          1,584          39           108        25-520   51%       3%
              Keystone          1,395          38           102        23-480   53%      11%
               Other           15,637         38            74         11-330   37%       3%
             Type Total3       40,530         360
             Silver Creek       224            53           33         3-170     6%       0%
  Park
 Models        Other            809            37           48         11-160   16%       0%
             Type Total         1,033          90
               Cavalier          921           42           78         14-320   36%       2%
 Mobile
 Homes         Other            4,486          27           53         11-120    4%       0%
             Type Total         5,407          69
     Grand Totals              46,970         519           77         3-590    38%       5%
                                                Notes
1. GM-geometric mean
2. ppb-parts per billion (Divided by 1000 to get parts per million)
3. Type totals include summations.

Source: DHS-OIG abridgement of a table in the Final Report on Formaldehyde Levels in FEMA
Supplied Travel Trailers, Park Models, and Mobile Homes issued by the Centers for Disease
Control and Prevention on July 2, 2008.



           Of the 519 mobile homes, park models, and travel trailers tested, more
           than 170 units (approximately one-third) showed formaldehyde
           concentrations at or in excess of 100 ppb, “the level at which health effects
           have been described in sensitive persons.” Twenty-one of the units tested,
           more than 4%, had readings of more than three times that level, or greater
           than 300 ppb. Six of the trailers tested had formaldehyde readings in


                          FEMA Responses to Formaldehyde in Trailers

                                            Page 52
excess of 400 ppb. The overall mean formaldehyde reading for the units
tested was 77 ppb, with a range of 3 ppb to 590 ppb of formaldehyde.

                                               Number of Units Tested by

                                        Formaldehyde Concentration at Each Level


                   60




                   50




                   40
 Number of Units




                   30




                   20




                   10




                    0




                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5
                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5

                                         5
                    5
                        25

                             45

                                  65

                                        85




                                       44

                                       46

                                       48

                                       50

                                       52

                                       54

                                       56

                                       58
                                       10

                                       12

                                       14

                                       16

                                       18

                                       20

                                       22

                                       24

                                       26

                                       28

                                       30

                                       32

                                       34

                                       36

                                       38

                                       40

                                       42
                                                         ppb (Parts Per Billion)




The tested levels varied greatly by type of unit and by manufacturer. In
general, travel trailers had significantly higher average formaldehyde
levels than park models and mobile homes, but all types of units tested had
some units that tested at greater than 100 ppb.

Also, different travel trailer manufacturers’ units had very different levels
of formaldehyde. The lowest mean reading for a manufacturer of travel
trailers was 39 ppb, with a range of 3 to 140 ppb, while the highest mean
for a manufacturer of travel trailers was 108 ppb, with a range of 25 to 520
ppb. Of the six travel trailer manufacturers that supplied the most units to
FEMA, only 6% of the best-performing manufacturer’s units exceeded
100 ppb and none exceeded 300 ppb, and of the second-best
manufacturer’s units, 13% exceeded 100 ppb and 3% exceeded 300 ppb.
More than half of the tested units from the three poorest performing
manufacturers exceeded 100 ppb; 51%, 56%, and 53%, respectively. In
addition, more of their units exceeded 300 ppb in the tests; 3%, 9%, and
11% respectively.

Park model manufacturers’ units fared better than most travel trailer
manufacturers in formaldehyde testing. The single separately tested
manufacturer of park model units had a mean of 33 ppb of formaldehyde
for its units tested, with a range of 3 to 170 ppb. Only 6% of its units
exceeded 100 ppb in testing and none exceeded 300 ppb. A combined
group of park models from other manufacturers, whose units were less


                              FEMA Responses to Formaldehyde in Trailers

                                               Page 53
     used by FEMA, had a mean of 48 ppb and a range of 11 to 160 ppb.
     Sixteen percent of this group tested at greater than 100 ppb, but none
     tested at greater than 300 ppb.

     Mobile home testing results were higher than park model results but lower
     than the results of most travel trailer manufacturers. The only separately
     tested manufacturer of mobile homes had a mean of 78 ppb of
     formaldehyde, with a range of 14 to 320 ppb. More than one-third of its
     units exceeded 100 ppb of formaldehyde in the tests, and 2% of its units
     tested at greater than 300 ppb. Since fewer mobile homes from other
     manufacturers were used in the Gulf Coast region, their units were
     grouped together in one test group. That combined group had a mean of
     53 ppb, with a range of 11 to 120 ppb. Only 4% of these units tested at
     greater than 100 ppb and none tested at greater than 300 ppb.

     In general, CDC’s formaldehyde study shows a fairly wide range of
     exposure levels. All of the park models tested had a mean result of less
     than 50 ppb, as did the travel trailers of the two best-scoring
     manufacturers. The two groups of mobile homes tested both had means
     that were in excess of 50 ppb, but not by as much as the four poorest-
     scoring manufacturers of travel trailers, three of whom had tested units
     with a mean of more than 100 ppb. The mixed group of mobile homes
     was the best of the tested groups in percentage of units scoring more than
     100 ppb, with only 4% doing so. However, the best-scoring manufacturer
     of park models and the best-scoring manufacturer of travel trailers tied
     with only 6% of their tested units scoring greater than 100 ppb, while the
     only individually tested manufacturer of mobile homes had 36% of its
     units test at greater than 100 ppb.

     The CDC study also noted that formaldehyde readings are higher during
     warmer weather and tend to decrease as a trailer ages. The CDC results,
     which were measured during the winter and only after the trailers had been
     lived in for about 2 years, may therefore under-represent the long-term
     exposure levels of FEMA trailer residents. The report concluded:

            “On the basis of the data reported here and in previous scientific
            reports and publications about adverse health effects associated
            with exposure to elevated formaldehyde levels, CDC recommended
            that FEMA relocate Gulf Coast residents displaced by hurricanes
            Katrina and Rita and still living in trailers.”

Causes of Delay in the Testing Effort for Occupied Units
     FEMA administrative procedures and a lack of planning on how to
     announce the results of testing and its implications delayed testing of

                FEMA Responses to Formaldehyde in Trailers

                                 Page 54
occupied units by nearly 4 months. But this appears to have been more
the result of a lack of management effort rather than an intentional effort
to delay testing until winter.

We did not conclude that FEMA officials were trying to delay the CDC
testing to a time when the results would be better. Although delaying the
testing until the cooler weather of December and January probably did
result in lower formaldehyde readings than would have been the case if the
testing had been conducted in late summer or early fall, there is no
evidence that FEMA officials delayed the process in order to obtain such
lower formaldehyde results. Lower formaldehyde readings from testing
would not necessarily have worked to FEMA’s interests. As one FEMA
official noted in an email to other FEMA officials:

       “Conventional wisdom suggests that FEMA is withholding
       information to keep occupants in the trailers, yet in fact nothing is
       further from the truth.…Cynics would argue that is why we’ve
       ‘delayed’ testing until the cooler weather. Again, untrue. …FEMA
       doesn’t need to test. We want Katrina victims out of travel trailers.
       We have acknowledged that there may be elevated levels of
       formaldehyde. The industry and their consumers have known this
       for years. And we don’t dispute that elevated formaldehyde levels
       have health effects. We have already researched and
       recommended mitigation strategies and urged occupants to work
       with us to explore and accept alternate housing options.
       Unfortunately, the remaining occupants are overwhelmingly
       reluctant to accept the options. Short of testing, and requiring
       federal actions, we are running out of administrative authorities to
       move or house these remaining Katrina victims. In the meantime,
       we are working closely with CDC to try and articulate a federal
       standard, and continue to lead research in mitigation strategies.
       This is just being smart as the largest block consumer and holder
       of travel trailers. It is not FEMA’s place to determine ‘safe.’ It
       would be nice to have defined for us a ‘safe’ level for future
       application of future THUs [temporary housing units] or disposal
       of current THUs. But the public health community should test,
       apply the results to the body of scientific knowledge and
       communicate guidance to all consumers and occupants, including
       FEMA.”

Even though we did not find any indications that FEMA officials wanted
to delay the conduct of testing, actions and lack of action by FEMA
officials significantly delayed the testing of occupied units. In general,
there was no urgency to test occupied units until a senior DHS official


           FEMA Responses to Formaldehyde in Trailers

                            Page 55
directed that medical professionals from the OHA become involved in the
process. Before that time, most of the key officials’ experience, focus,
goals, and frameworks of reference were in the areas of disaster recovery,
legal liabilities, emergency housing, or scientific studies. Their primary
focus over the prior 14 months of formaldehyde-related efforts was,
unfortunately, not on the medical conditions of the occupants of the
trailers. But, within 10 days of assigning medically qualified OHA staff to
the formaldehyde problem, FEMA’s focus finally came to rest on the key
actions that were needed. These included a statistically valid sample of
occupied trailers being tested for formaldehyde and other VOCs, a
medical evaluation through interviews with trailer occupants, a
toxicological review recommending target levels based on past and
ongoing research, and an engineering review looking for long-term
engineering solutions for formaldehyde in trailers. Having officials with
the right background and expertise helped FEMA focus its formaldehyde
effort on the critical issues.

But even after FEMA began to focus on the critical issues, it would be 5
months before the first step of testing occupied trailers was ready to
commence. Most of that time was needed to work out administrative
details between FEMA and CDC because there was no existing
interagency agreement in place between FEMA and CDC to undertake this
type of health study. FEMA was not able to respond adeptly to such a
situation calling for quick administrative action. It took more than 6
weeks to issue a formal request to CDC asking for their assistance. CDC
officials, while not critical of FEMA, told us that they were rather
surprised at how long it took FEMA to get the formal letter of request to
CDC, considering that FEMA officials had acted as if the matter was
urgent. Furthermore, CDC officials had to keep asking FEMA to “shake
loose” the letter that they had previously warned was necessary to get the
effort underway.

FEMA actions delayed CDC testing, but did not otherwise significantly
interfere with it. We asked all of the CDC officials that we interviewed
whether FEMA officials had in any way tried to influence the scientific
conduct or outcomes of the study. Every one of the CDC officials we
interviewed stated that in no way had FEMA officials made any attempt
whatsoever to influence the scientific conduct or outcomes of the
formaldehyde study. There had only been some minor conflicts
concerning public affairs efforts.

Once the testing process was in place, a questionable FEMA decision set
the process back by another 2 months. The Deputy Administrator caused
work on the testing of occupied units to be stopped just as testing was


           FEMA Responses to Formaldehyde in Trailers

                            Page 56
     about to begin, resulting in the testing contract being canceled for the
     convenience of the government and resulting in more than an 8-week
     delay before another contract could be issued and a contractor put in place.
     The Deputy Administrator had the testing stopped because, in the absence
     of needed standards for “safe” levels of formaldehyde in trailers, it would
     be extremely difficult to communicate to the occupants of trailers just
     what degree of health threat they were facing. Also a plan was needed for
     how FEMA would respond and what actions it would take if the testing
     found that formaldehyde levels exceeded acceptable levels. In addition,
     the Deputy Administrator wanted to have a “message” ready for Congress
     and the media. All of these issues could and should have been anticipated
     prior to the commencement of the testing efforts, or could have been
     completed concurrently with the testing process. In any case, there never
     was, and still has not been, a determination of what constitutes a “safe”
     level of formaldehyde in travel trailers, and testing eventually went
     forward under a second contract without any such determination.

     Usually, such an arbitrary stop-work and contract cancellation order could
     have cost the government significant damages. However, in this case it
     worked out favorably because the second contract’s costs were lower than
     the first by more than the amount in damages that had to be paid to the
     first contractor. More important though, terminating the first contract
     delayed the testing process until winter when formaldehyde levels and,
     therefore, test results would be lower and delayed the announcement of the
     formaldehyde conditions to occupants by another 2 months.

Conclusions
     Initiating testing of occupied trailers to determine the nature, causes,
     extent, and impact of the formaldehyde problem took far longer than
     necessary. Part of the reason is that the officials who were originally
     managing the program did not have the medical background or focus to
     take the necessary actions in an effective and expeditious manner,
     although they did attempt to reach out to scientific experts. Whenever
     FEMA clients face health or safety problems, it is important that qualified
     consultants quickly be made part of the problem management team. In the
     case of health issues, this means bringing in medically qualified persons.
     Once OHA personnel were part of the management team, they were able
     to help FEMA focus its efforts on medical priorities, as was appropriate in
     this case. OHA may not always have adequate resources to assist FEMA
     in such cases, but FEMA needs access to the type of expertise that they
     brought to the team.




                FEMA Responses to Formaldehyde in Trailers

                                 Page 57
Health issues are a frequent component of disasters, and FEMA has
interagency agreements to address many related health program needs.
However, there was no such agreement in place for performing the types
of testing and analysis that were needed in the case of the FEMA trailers’
formaldehyde problems. It is likely that such problems and needs will
occur in the future. Given the amount of time and problems encountered
in putting a single individual agreement in place, it would be beneficial to
have a standing interagency agreement to provide such testing services in
the future.

The decision to stop testing occupied trailers to work on improving the
FEMA message and provide trailer occupants with meaningful
information explaining how to apply the data was not justified by the
circumstances. The necessary preparation should have been done long
before testing commenced or could have been done concurrently while
allowing testing to go forward. Testing to determine the prevalence,
extent, and nature of health threats should not be held up in order to
develop or improve messages.

Recommendations
We recommend that FEMA:

       Recommendation #8: Develop a standing agreement with OHA
       or another organization to provide medical consultants as needed
       to help design approaches for dealing with client health issues in
       FEMA operations.

       Recommendation #9: Establish a standing interagency agreement
       with the CDC or another qualified agency to provide testing and
       evaluation services for future health threat issues.

       Recommendation #10: Develop policy and related guidelines that
       make clear that identification and analysis efforts related to health
       threats to FEMA clients are not to be stopped or held up except
       when absolutely necessary.




           FEMA Responses to Formaldehyde in Trailers

                            Page 58
Epilogue – Actions and Efforts Related to Formaldehyde in
Trailers After the February 14, 2008, News Conference
     Although the scope of this report ends with the February 14, 2008, formaldehyde
     news conference, FEMA has subsequently continued efforts to address the
     formaldehyde problem and has instituted new efforts. There also have been a
     number of ongoing efforts and some new joint efforts with CDC. These efforts
     were outside the scope of our review and many are ongoing and still changing.

     All of the occupants whose trailers had been part of the formaldehyde testing by
     the CDC contractor were encouraged to have an individual “explanation session”
     with CDC and FEMA officials. CDC and FEMA representatives visited the
     occupants of the trailers and described how their unit had fared in the tests, what
     the test results implied, and what housing options were available to them. In
     addition, FEMA offered formaldehyde testing to all of the occupants whose units
     had not been included in the original sample of 519 trailers, but only when they
     requested such testing. The testing was conducted by the same firm that had
     performed the testing of the 519 units in the original tests, but under a FEMA
     contract rather than a CDC contract. As of October 15, 2008, the occupants of
     more than 3,500 FEMA trailers had taken advantage of this offer.

     FEMA’s goal was to find alternative housing for all residents of temporary
     housing units in the Gulf Coast area. Many of the occupants were in trailers that
     had been located on their property while they repaired their homes. Some of the
     occupants had completed repairs to the point where they could move back into
     their homes. It was not that difficult for those individuals to give up their trailer.
     But others were not so fortunate. Repairs to their homes were not yet complete
     because of disputes over insurance payments, the slowness of some assistance
     programs, the extent of damage to their residences, or other problems. Many of
     those individuals did not want to give up their FEMA trailers and move to
     alternative housing. Doing so would make it more difficult to complete the
     repairs to their homes, and some feared that moving away from their partially
     finished homes would leave them vulnerable to vandals and thieves. Other
     occupants of FEMA trailers were located on group or commercial sites. Many of
     those individuals and families had been renters before the hurricanes hit. Many
     were low-income families who were faced with the fact that much of the low-cost
     rental stock had been destroyed and the remaining rental properties had greatly
     escalated in price as a consequence of the reduced supply. FEMA offered
     alternative housing, such as FEMA-funded rentals and motel rooms, but many
     were reluctant to take these offers owing to doubts about what would happen to
     them when FEMA rental assistance was discontinued.

     Nevertheless, FEMA and local officials were successful in transferring most
     trailer occupants back into their private residences or to alternative rented houses,

                        FEMA Responses to Formaldehyde in Trailers

                                         Page 59
apartments, or motels. By October 15, 2008, only 11,461 households remained in
FEMA trailers.

FEMA is also working to develop a supply of emergency housing units that do
not present significant formaldehyde problems. Some of the existing FEMA
housing stock, particularly mobile homes, park models, and travel trailers from
some manufacturers, have lower formaldehyde levels.

All of the FEMA mobile homes were required to be constructed to HUD
standards, including HUD restrictions on formaldehyde. Meeting those standards,
however, does not mean that a unit will be below a formaldehyde level that is
acceptable to FEMA. The HUD standards were originally designed to keep
mobile homes below 400 ppb of formaldehyde. Although the 69 FEMA mobile
homes tested by the CDC were below 400 ppb, one was greater than 300 ppb and
around 25% of the units tested at more than 100 ppb. FEMA park model units
actually fared better than FEMA mobile homes in the CDC tests. None of the 90
park model units tested at more than 300 ppb formaldehyde and only around 10%
of the units tested at more than 100 ppb. FEMA officials are having the mobile
homes and park models that are in their usable inventory tested for formaldehyde
and certified by a qualified contractor. Those units that have results within an
acceptable level are being offered to states suffering disasters, such as Iowa after
the 2008 floods. The levels of formaldehyde in the units are made known to state
officials and the states have the option of rejecting any units that are above their
respective acceptable levels.

In addition, FEMA officials have developed specifications and designs for
procuring future emergency housing stock that will not pose a formaldehyde
threat of more than 16 ppb. Previously, in July 2007, the Acting Assistant
Administrator, Disaster Assistance Directorate had directed that the
implementation of contract specifications for the new park model units be halted
because the plans had included using the HUD mobile home standards for
formaldehyde in materials as the standards for the new park models. He directed
that: “Those specs will not suffice. Please suspend any purchases until this issue
is resolved.”

By October 21, 2007, the Acting Assistant Administrator, Disaster Assistance
Directorate, had announced, “We are using .015 as our current de facto standard
for new purchases. This is .001 ppm below the NIOSH cellular-effect level.”
There is some question as to the validity of this “cellular-effect” level. CDC
officials told us that NIOSH officials made this determination because it was the
lowest level that the metering devices available at that time could measure, rather
than being based on any particular test data. Nevertheless, the 15 ppb
specification, which has been subsequently revised to 16 ppb, is an extremely
ambitious specification and if met, would make FEMA trailers among the most


                   FEMA Responses to Formaldehyde in Trailers

                                    Page 60
formaldehyde-free of any new trailers. Several trailer manufacturers, in testimony
before a congressional committee, testified that they did not believe such a
specification would be workable. In August 2008, however, FEMA officials told
us that the majority of the park models being produced under the current contract
are meeting this standard and that the rest are being sent back to the contractor for
corrective work. FEMA’s intention is to purchase park models and mobile homes
that will all be constructed to the new standard of 16 ppb, or less, in tested
formaldehyde readings.

In addition to the testing of the 519 occupied trailers in Louisiana and Mississippi,
FEMA and CDC have cooperated in developing further research that examines
the causes and effects of the formaldehyde problem. These efforts should lead to
future trailers being much safer in terms of formaldehyde.

On April 24, 2008, CDC released a study titled “Assessment of health complaints
among pediatric residents living in FEMA temporary housing in Hancock County,
Mississippi.” The purpose of the study was to determine whether there was a
relationship between families living in FEMA trailers and their children having
air-quality related illnesses. The study found similar illness patterns between
children who had lived in FEMA trailers and children who had not. However, the
availability of pre-Katrina data was limited and the fact that all of the children
tested would likely have health effects from just living through the hurricane and
its aftereffects placed limitations on the study.

In a FEMA and CDC joint effort, sometimes referred to as the “chain-saw study,”
to examine the causes of formaldehyde in trailers, four travel trailers from four
different manufacturers were disassembled and a total of 45 formaldehyde-
emitting component parts were shipped to Lawrence Berkeley National
Laboratory in California for analysis. The report of this analysis was released on
May 8, 2008. Before disassembly, these four units had daytime formaldehyde
readings of 35 to 78 ppb. The tests found that 44 of the 45 tested components
actually met the HUD standards for components of mobile homes, even though
the components of these travel trailers were not required to meet the standards.
The study concluded that elevated formaldehyde levels in travel trailers are most
likely due to the cumulative effect of too much formaldehyde-emitting material in
too small a space with insufficient ventilation, even though construction materials
individually meet standards generally used in the building industry.

CDC officials told us of several additional ongoing or planned joint efforts of
FEMA and CDC. These include a study of mitigation methods that might be used
to reduce the formaldehyde levels of existing trailers; a “chain-saw” study of 10
to 15 more units including mobile homes, park models, and travel trailers to
determine what factors allow some to have low levels of formaldehyde and what
factors cause others to have high levels; and a study to validate a type of meter


                   FEMA Responses to Formaldehyde in Trailers

                                    Page 61
that would allow for quick and easy testing of formaldehyde levels of FEMA
trailers in the field. FEMA officials also reported that CDC and FEMA are
making an initial combined investment of $14 million on a health registry and
children’s health study to further examine and monitor the health impacts of
formaldehyde on the subject population.

Conclusions
       FEMA and CDC have undertaken significant efforts to address current
       formaldehyde exposure of trailer occupants and improve the formaldehyde
       exposure in future emergency housing. FEMA offered formaldehyde
       testing services to current occupants of FEMA trailers and has actively
       encouraged the occupants to accept alternative housing. FEMA is also
       working aggressively to develop new low-formaldehyde trailers. These
       development efforts, if successful, could set new standards of excellence
       in air quality for trailers in the industry. FEMA and CDC have supported
       and conducted research that has given new insight into the causes of
       formaldehyde problems and the steps that need to be taken to address such
       problems. Planned future research should help address the causes and
       effects of formaldehyde exposure and may assist in the development of
       much-needed residential formaldehyde standards.




                  FEMA Responses to Formaldehyde in Trailers

                                   Page 62
Management Comments and OIG Analysis
        FEMA concurred with all of the recommendations we offered to improve
        efforts to promote and protect the health and safety of its clients. During
        the audit and after our fieldwork, FEMA officials took steps to address
        formaldehyde and other health and safety issues in emergency housing
        units. Based on FEMA’s comments and actions to date, all of the report’s
        recommendations have been resolved. FEMA will apprise us of its
        progress in implementing all of the recommendations within 90 days. We
        will close each recommendation when FEMA provides evidence that the
        recommendation has been fully implemented.

        Two issues raised in FEMA’s response to our draft report merit further
        clarification. FEMA officials believe the report was “unreasonable” in
        stating that “the contracts that FEMA entered into to purchase housing
        units did not result in units that had currently acceptable levels of
        formaldehyde.” We agree that FEMA contracting officers at the time of
        purchase did not have knowledge of the problems that subsequently
        developed or of the importance of addressing such problems. We believe,
        however, that the report presents a reasonable analysis of one of the
        factors that allowed trailers with formaldehyde problems into the FEMA
        housing supply. Analysis of such factors is appropriate to determining
        what the causes of the formaldehyde problems were and what corrective
        actions would be needed for the future.

        FEMA officials also believe “the report does not adequately emphasize the
        compelling fact that there were no established formaldehyde standards for
        travel trailers and no consensus in the health and regulatory communities
        as to what constituted acceptable residential formaldehyde levels.” We
        agree that there is a lack of formaldehyde standards for travel trailers and
        confusion as to acceptable residential standards. We believe, however,
        that issue is appropriately addressed in the “Formaldehyde Standards”
        section of the report.




                   FEMA Responses to Formaldehyde in Trailers

                                    Page 63
Appendix A
Purpose, Scope and Methodology

            This review was mandated by Congress under the terms of the
            Consolidated Appropriations Act, 2008 (PL 110-161). Specifically, the
            2008 Appropriations Omnibus Explanatory Statement provided that:

                   “The IG is directed to investigate the Federal Emergency
                   Management Agency’s (FEMA) policies and processes regarding
                   formaldehyde in trailers purchased by the agency to house disaster
                   victims. The IG shall investigate the process used by FEMA to
                   collect and respond to health and safety concerns of trailer
                   occupants; whether FEMA adequately notified occupants of
                   potential health and safety concerns; and whether FEMA has
                   proper controls and processes in place to deal with health and
                   safety concerns of those living in trailers following disasters. The
                   IG is to report its findings to the Committees on Appropriations,
                   including any recommendations.” (Page 1026) and

                   “Additionally, the Committees on Appropriations direct the
                   Inspector General to report to the Committees on Appropriations,
                   the Senate Committee on Homeland Security and Government
                   Affairs, and the House Transportation and Infrastructure
                   Committee regarding FEMA’s decision-making regarding
                   formaldehyde in trailers.” (Page 1077)

            The objectives of our review were to determine: (1) how some of the
            FEMA emergency housing came to have formaldehyde problems; (2)
            when FEMA officials learned of the formaldehyde problems in the
            housing units; (3) what was done to protect housing residents and prevent
            further problems; and, (4) why it took as long as it did for FEMA officials
            to determine the extent of the formaldehyde problems in FEMA
            emergency housing units.

            The scope of our review included all FEMA actions and other significant
            events relating to formaldehyde in FEMA emergency housing units
            (mobile homes, travel trailers, and park models trailers) from procuring
            the first emergency housing units in the wake of Hurricane Katrina in
            early September 2005 through the joint FEMA/CDC press conference
            announcing the results of formaldehyde testing on February 14, 2008. We
            also sought relevant information related to those actions taken subsequent
            to that date that are clearly related to the reported actions and events. That
            additional information is reported in the epilogue section.

            We reviewed available files and documents relating to formaldehyde in
            FEMA emergency housing units, including all available FEMA email

                       FEMA Responses to Formaldehyde in Trailers

                                        Page 64
Appendix A
Purpose, Scope and Methodology

            documents from the period under review that included reference to the
            topic of formaldehyde. Quotes from these emails are referred to
            throughout this report. Because emails frequently have common errors of
            spelling or grammar, corrections were made as appropriate. However, in
            no case was the meaning or content of any email modified.

            We interviewed responsible officials from pertinent FEMA offices,
            including the Disaster Assistance Directorate, the Office of the Chief
            Counsel, the Logistics Management Directorate, the Occupational Safety
            and Health Office, the Gulf Coast Recovery Office, the Louisiana
            Transitional Recovery Office, and the Mississippi Transitional Recovery
            Office. We also interviewed officials from the DHS Office of Health
            Affairs, CDC, and ATSDR.

            We conducted fieldwork in Washington, DC; New Orleans and Baton
            Rouge, LA; Biloxi, MS; and Atlanta, GA. We conducted our review from
            February through October 2008 under authority of the Inspector General
            Act of 1978, as amended, and according to the Quality Standards for
            Inspections issued by the President’s Council on Integrity and Efficiency.

            The findings and recommendations in our report were prepared
            independently of any pending or anticipated litigation, and our report was
            not drafted to satisfy the evidentiary standards of a court of law. It is the
            position of DHS that nothing in the OIG report is an admission for
            purposes of litigation.




                       FEMA Responses to Formaldehyde in Trailers

                                        Page 65
Appendix B
Timeline of Key Events

             August 29, 2005 – Hurricane Katrina made landfall on the
             Louisiana/Mississippi state line.

             September 3, 2005 – The first FEMA trailers arrived in the Gulf Coast
             region.

             September 10, 2005 – The first FEMA trailer in the Gulf Coast region
             was occupied.

             September 24, 2005 – Hurricane Rita made landfall on the
             Texas/Louisiana state line.

             November 11, 2005 – OSHA conducted formaldehyde tests on
             unoccupied FEMA trailers in Purvis, MS.

             March 16, 2006 – A Biloxi television station reported on formaldehyde
             problems in a FEMA trailer. FEMA officials were quoted by the press as
             requesting that…“if anyone suspects a serious problem [with
             formaldehyde] to call the FEMA maintenance number at 1-866-877­
             6075.”

             April 6, 2006 – A testing company found unacceptable formaldehyde
             levels in an occupied FEMA trailer.

             April 11, 2006 – A FEMA contractor tested a trailer’s formaldehyde
             levels at the occupant’s request. The results were high.

             May 17, 2006 – The Sierra Club issued a press release and reported they
             had tested occupied FEMA trailers, and formaldehyde levels, in most,
             ranged from approximately 100 ppb to more than 300 ppb.

             June 13, 2006 – Sierra Club officials wrote to the Acting Assistant
             Administrator, Disaster Assistance Directorate, and recommended that
             FEMA test trailers to determine formaldehyde levels, supplement
             manufacturers’ warnings, and tell trailer occupants to vent their units.

             June 14, 2006 – FEMA OGC received Hillard v. United States, et al., Civ.
             Action No. 06-2576 (E.D. La.) and the case was assigned to a FEMA
             litigation attorney. The Hillard plaintiffs asserted that the trailers provided
             by FEMA contained dangerous levels of formaldehyde and sought class
             action status, $1 billion in damages, and injunctive relief. FEMA OGC
             advised that because of the lawsuit, FEMA persons dealing with



                         FEMA Responses to Formaldehyde in Trailers

                                          Page 66
Appendix B
Timeline of Key Events

             applicants on formaldehyde issues must coordinate with the FEMA
             litigation attorney assigned to the case and the Department of Justice.

             June 14, 2006 – In response to concerns regarding whether a disaster
             victim’s death might be related to formaldehyde in a trailer, a FEMA
             official sent out an email: “Has the Agency conducted our own testing of
             the units? If not we need to do so ASAP and put this issue to rest or
             remove people from harm.”

             June 15, 2006 – FEMA OGC responded: “Do not initiate any testing
             until we give the OK. While I agree that we should conduct testing, we
             should not do so until we are fully prepared to respond to the results.
             Once you get results and should they indicate some problem, the clock is
             running on our duty to respond to them.”

             June 16, 2006 – FEMA officials decided to address the complaining
             occupants on an individual basis. Occupants should be directed to air out
             their units, run their air conditioners and: “As a final recommendation, we
             would swap out the unit for a used, renovated unit which would not
             present the off-gassing problems experienced in the new units.…Further,
             OCG has advised that we do not do testing, which would imply FEMA’s
             ownership of this issue.”

             June 27, 2006 – A FEMA official emailed the Acting Assistant
             Administrator, Disaster Assistance Directorate, and other FEMA officials,
             and stated that FEMA had to move past OCC’s objections to testing and
             needed to prepare a safety notice for emergency housing unit occupants.
             The Acting Deputy Administrator for Recovery responded: “I discussed
             this with [FEMA official] yesterday, and his recommendation, which I
             support, is to mission assign EPA to do a full assessment of the
             formaldehyde problem, and make recommendations. Agreed that you
             should not wait to post notices.”

             June 28, 2006 – EPA, FEMA, and ATSDR officials discussed the concept
             of formaldehyde testing.

             July – August 2006 – More than 268,000 formaldehyde brochures were
             sent to trailer occupants. The brochure described formaldehyde, its
             effects, and actions occupants should take to reduce formaldehyde levels.

             September 18, 2006 – An EPA contractor commenced testing never-
             occupied trailers at baseline and under two ventilation methods: by



                         FEMA Responses to Formaldehyde in Trailers

                                          Page 67
Appendix B
Timeline of Key Events

             running the air-conditioning with the bathroom vents open and by opening
             the windows and vents.

             October 19, 2006 – The testing of unoccupied units by an EPA contractor
             was completed and the contractor processed the preliminary data.

             Late November 2006 – FEMA received the EPA testing data and
             forwarded the data approximately 1 week later to ATSDR for analysis.

             February 1, 2007 – ATSDR sent their “Health Consultation” report on
             the analysis of EPA testing results to FEMA stating: “In summary, the
             opening of windows and vents was effective in reducing formaldehyde
             concentrations below levels of health concern.”

             March 17, 2007 – ATSDR sent a letter to FEMA warning that the
             February 1, 2007, “Health Consultation” report did not address the fact
             that formaldehyde may cause cancer, the report had been completed
             without a policy review by the senior technical staff, and the report was
             incomplete and perhaps misleading.

             March 22, 2007 – The FEMA Mobile Home Operations (MHOPS)
             Maintenance Coordinator issued revised formaldehyde guidelines to
             MHOPS Field Staff for handling complaints.

             March 23, 2007 – A FEMA official informed Congress that FEMA was
             not aware of any significant health risks to trailer occupants.

             May 1, 2007 – A national news report aired a feature titled “Toxic
             Trailers.”

             May 17, 2007 – A senior DHS official sought DHS OHA involvement in
             the problem and OHA contacted CDC regarding testing of occupied
             trailers.

             May 18, 2007 – A conference call was held with CDC regarding the
             formaldehyde issue. DHS OHA, on behalf of FEMA, continued
             formaldehyde discussions with CDC officials to shape the questions that
             needed to be addressed.

             June 12, 2007 – Policy was released directing the replacement of
             formaldehyde problem trailers with rental housing rather than with used
             trailers.



                         FEMA Responses to Formaldehyde in Trailers

                                          Page 68
Appendix B
Timeline of Key Events

             July 13, 2007 – FEMA sent a letter to the CDC Director formally
             requesting assistance in designing additional tests related to formaldehyde
             and enhanced strategies for mitigation.

             July 20, 2007 – The formal letter of request from FEMA for CDC
             assistance in testing and analysis of occupied trailers was received at
             CDC.

             July 31, 2007 – The FEMA Administrator issued an Interim Direction
             announcing several additional steps FEMA was taking to address
             formaldehyde concerns and to work more closely with occupants who may
             have concerns about formaldehyde exposure including an information
             portal for formaldehyde concerns and the provision of rental housing to
             replace trailers.

             August 16, 2007 – The FEMA interagency agreement with CDC for
             testing and analysis of occupied trailers was signed.

             October 2007 – The revised and updated version of the February 2007
             ATSDR “Health Consultation” addressing the testing of unoccupied
             trailers was issued.

             October 29, 2007 – FEMA officials caused a stop-work order to be placed
             on the testing of occupied trailers.

             December 11, 2007 – CDC awarded a new contract for testing occupied
             units.

             December 21, 2007 – The testing of occupied units commenced.

             January 23, 2008 – The testing of the 519 occupied trailers was
             completed.

             February 14, 2008 – The FEMA Administrator and the CDC Director
             held a joint press conference announcing the results of testing occupied
             trailers.

             February 29, 2008 – The interim CDC report on testing of occupied units
             was released.

             April 24, 2008 – The CDC report on assessment of children’s health was
             released.



                         FEMA Responses to Formaldehyde in Trailers

                                          Page 69
Appendix B
Timeline of Key Events

             May 8, 2008 –The CDC contracted report on the testing of trailer
             components for formaldehyde emissions was released.

             July 2, 2008 – The final CDC report on the testing of occupied trailers
             was released.




                         FEMA Responses to Formaldehyde in Trailers

                                          Page 70
Appendix C
Consolidated List of Recommendations

      We recommend that FEMA:

            Recommendation #1: Include specifications in contracts for future
            purchases of mobile homes, travel trailers, and park models that provide
            for acceptable maximum formaldehyde levels in units that are delivered.

            Recommendation #2: Establish quality assurance/quality control
            requirements to ensure that excessive formaldehyde levels will be
            prevented, and institute inspection procedures to detect and reject units
            with unacceptable formaldehyde levels.

            Recommendation #3: Promulgate a policy that any issue or problem that
            might affect the health and safety of occupants of emergency housing
            must be quickly forwarded to the responsible headquarters offices as
            defined in this new policy.

            Recommendation #4: Train FEMA and contractor “front-line”
            employees who have contact with disaster victims on how to respond to
            health and safety issues.

            Recommendation #5: Establish a policy that whenever a health or safety
            issue arises concerning its clients, all reasonable actions will be taken to
            determine the nature, cause, extent, and consequences of the problem.

            Recommendation #6: Whenever a problem might affect the health and
            safety of FEMA clients, such as occupants of emergency housing,
            promulgate consistent and effective guidance to the field concerning how
            to address such problems.

            Recommendation #7: Establish clear policy over the decision making
            processes related to matters of health and safety. This policy should
            mandate that responsible program and management officials make
            decisions after obtaining and considering all appropriate professional
            advice, including opinions and input from medical, scientific, and legal
            experts. Moreover, FEMA should ensure that responsible program
            officials and managers have access to critical information and advice
            related to the health and safety effects of all FEMA programs.

            Recommendation #8: Develop a standing agreement with OHA or
            another organization to provide medical consultants as needed to help
            design approaches for dealing with client health issues in FEMA
            operations.



                       FEMA Responses to Formaldehyde in Trailers

                                        Page 71
Appendix C
Consolidated List of Recommendations

            Recommendation #9: Establish a standing interagency agreement with
            the CDC or another qualified agency to provide testing and evaluation
            services for future health threat issues.

            Recommendation #10: Develop policy and related guidelines that make
            clear that identification and analysis efforts related to health threats to
            FEMA clients are not to be stopped or held up except when absolutely
            necessary.




                       FEMA Responses to Formaldehyde in Trailers

                                        Page 72
Appendix D
Management Comments to the Draft Report




                     FEMA Responses to Formaldehyde in Trailers 


                                      Page 73 

Appendix D
Management Comments to the Draft Report




                     FEMA Responses to Formaldehyde in Trailers 


                                      Page 74 

Appendix D
Management Comments to the Draft Report




                     FEMA Responses to Formaldehyde in Trailers 


                                      Page 75 

Appendix D
Management Comments to the Draft Report




                     FEMA Responses to Formaldehyde in Trailers 


                                      Page 76 

Appendix D
Management Comments to the Draft Report




                     FEMA Responses to Formaldehyde in Trailers 


                                      Page 77 

Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Acting Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      Federal Emergency Management Agency

                      Administrator
                      Acting Deputy Administrator
                      Acting Assistant Administrator, Disaster Assistance Directorate
                      Acting Director, Office of Policy and Program Analysis
                      Assistant Administrator, Management
                      FEMA Audit Liaison (Job Code: DC8M01)

                      Office of Management and Budget

                      Chief of Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                         FEMA Responses to Formaldehyde in Trailers

                                          Page 78
Appendix F
OIG Contributors

      Kaye McTighe, Director

      Donald Norman, Senior Program Analyst

      Nigel Gardner, Senior Program Analyst




                       FEMA Responses to Formaldehyde in Trailers 


                                        Page 79 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
